<html>
<title> - FLINT WATER CRISIS: IMPACTS AND LESSONS LEARNED</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





            FLINT WATER CRISIS: IMPACTS AND LESSONS LEARNED

=======================================================================

                             JOINT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                AND THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2016

                               __________

                           Serial No. 114-131



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-534 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                  (ii)
              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Mississippi            PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)
                                 ------                                

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            G.K. BUTTERFIELD, North Carolina
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
CATHY McMORRIS RODGERS, Washington   JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)


















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     2
    Prepared statement...........................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................    11
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    13
    Prepared statement...........................................    13

                               Witnesses

Joel Beauvais, Deputy Assistant Administrator, Office of Water, 
  Environmental Protection Agency................................    14
    Prepared statement...........................................    17
    Answers to submitted questions \1\...........................   181
Nicole Lurie, M.D., Assistant Secretary for Preparedness and 
  Response, Department of Health and Human Services..............    19
    Prepared statement...........................................    21
    Answers to submitted questions \1\...........................   182
Nick Lyon, Director, Michigan Department of Health and Human 
  Services.......................................................    33
    Prepared statement...........................................    36
    Answers to submitted questions...............................   183
Keith Creagh, Director, Michigan Department of Environmental 
  Quality........................................................    40
    Prepared statement \2\.......................................    42
    Answers to submitted questions...............................   201
Mona Hanna-Attisha, M.D., Assistant Professor of Pediatrics, 
  Michigan State University College of Human Medicine, and 
  Director, Pediatric Residency Program, Hurley Children's 
  Hospital.......................................................    80
    Prepared statement...........................................    83
    Answers to submitted questions \1\...........................   206
Joan C. Alker, Executive Director, Georgetown University Center 
  for Children and Families......................................    87
    Prepared statement...........................................    89
Stephen Estes-Smargiassi, Director of Planning and 
  Sustainability, Massachusetts Water Resources Authority, on 
  Behalf of the American Water Works Association.................    95
    Prepared statement...........................................    97
    Answers to submitted questions...............................   207
June Swallow, Administrator, Rhode Island Drinking Water Program, 
  Rhode Island Department of Health, and President, Association 
  of State Drinking Water Administrators.........................   112
    Prepared statement...........................................   114
    Answers to submitted questions...............................   214

----------
\1\ Witness did not answer submitted questions for the record by the 
time of printing.
\2\ Additional material submitted for the record has been retained in 
committee files and also is available at  http://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=104765.
Mae C. Wu, Senior Attorney, Health and Environment Program, 
  Natural Resources Defense Council..............................   117
    Prepared statement...........................................   119
    Answers to submitted questions \3\...........................   217

                           Submitted Material

Statement of the American Public Works Association by Brian 
  Usher, President, April 13, 2016, submitted by Mr. Green.......   152
Letter of April 13, 2016, from Richard Hodges, Director, Ohio 
  Department of Health, to Mr. Pallone, submitted by Mr. Green...   156
Statement of the American Academy of Pediatrics, April 18, 2016, 
  submitted by Mr. Green.........................................   159
Resolution of the National Medical Association, ``Lead 
  Contamination in Flint Water: Negligence,'' adopted March 6, 
  2016, submitted by Mr. Green...................................   176
Article of April 12, 2016, ``Virginia Tech water study team faces 
  financial struggles,'' by Robby Korth, The Roanoke Times, 
  submitted by Mr. Griffith......................................   179

----------
\3\ Witness did not answer submitted questions for the record by 
  the time of printing.

 
            FLINT WATER CRISIS: IMPACTS AND LESSONS LEARNED

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                   House of Representatives
       Subcommittee on Environment and the Economy,
                             joint with the
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:02 a.m., in 
room 2123 Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the Subcommittee on Health) presiding.
    Members present: Representatives Pitts, Shimkus, Guthrie, 
Harper, Murphy, Burgess, Latta, Lance, McKinley, Griffith, 
Bilirakis, Johnson, Long, Ellmers, Bucshon, Flores, Brooks, 
Hudson, Collins, Upton (ex officio), Engel, Green, Capps, 
Doyle, Schakowsky, Butterfield, Matsui, Castor, Sarbanes, 
McNerney, Lujan, Tonko, Schrader, Kennedy, Cardenas, and 
Pallone (ex officio).
    Also present: Representative Kildee.
    Staff present: Gary Andres, Staff Director; Will Batson, 
Legislative Clerk; Mike Bloomquist, Deputy Staff Director; 
Rebecca Card, Assistant Press Secretary; Karen Christian, 
General Counsel; Jerry Couri, Senior Environmental Policy 
Advisor; Theresa Gambo, Admin/Human Resources; A.T. Johnston, 
Senior Policy Advisor; David McCarthy, Chief Counsel, 
Environment and the Economy; Tim Pataki, Member Services 
Director; Graham Pittman, Legislative Clerk; Mark Ratner, 
Policy Advisor to the Chairman; Tina Richards, Counsel, 
Environment; Michelle Rosenberg, GAO Detailee, Health; Chris 
Santini, Policy Coordinator, Oversight and Investigations; 
Chris Sarley, Policy Coordinator, Environment and the Economy; 
Dan Schneider, Press Secretary; Adrianna Simonelli, Legislative 
Associate; Heidi Stirrup, Policy Coordinator, Health; Josh 
Trent, Deputy Chief Counsel; Dylan Vorbach, Deputy Press 
Secretary; Jeff Carroll, Democratic Staff Director; Jacqueline 
Cohen, Democratic Senior Counsel; Timia Crisp, Democratic AAAS 
Fellow; Kyle Fischer, Democratic Health Fellow; Jean Fruci, 
Democratic Energy and Environment Policy Advisor; Waverly 
Gordon, Democratic Professional Staff Member; Tiffany 
Guarascio, Democratic Deputy Staff Director and Chief Health 
Advisor; Rick Kessler, Democratic Senior Advisor and Staff 
Director for Energy and the Environment; Una Lee, Democratic 
Chief Oversight Counsel; Elizabeth Letter, Democratic 
Professional Staff Member; Dan Miller, Democratic Staff 
Assistant; Rachel Pryor, Democratic Health Policy Advisor; 
Alexander Ratner, Democratic Policy Analyst; Timothy Robinson, 
Democratic Chief Counsel; Samantha Satchell, Democratic Policy 
Analyst; Matt Schumacher, Democratic Press Assistant; and 
Andrew Souvall, Democratic Director of Communications, Outreach 
and Member Services.
    Mr. Pitts. The subcommittee will come to order. This is a 
joint hearing between the Subcommittee on Environment and the 
Economy and the Subcommittee on Health. The Chair will 
recognize himself for an opening statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Today's hearing will provide an opportunity for our two 
subcommittees to examine the issues related to the ongoing 
drinking water crisis and related public health effects in 
Flint, Michigan. Members of the committee already have a basic 
understanding of the situation that led to the high levels of 
lead discovered in the Flint drinking water system and the 
focus of today's hearing will be how we can best respond to 
help affected families in Flint and how we can best move 
forward with solutions to ensure this does not happen again. 
Our witnesses today will be able to provide key insights on 
what efforts both the Federal and State Governments are 
undertaking and I look forward to their testimony.
    According to the Mayo Clinic, lead poisoning, quote, can 
severely affect mental and physical development, end quote, and 
can even be fatal at high lives. From a public health 
standpoint, we will want to better understand how the 
administration has coordinated with the State of Michigan to 
provide technical assistance to State and local health 
departments, including how they helped with case management and 
interventions with children identified with elevated lead blood 
levels.
    Addressing the long-term health implications, a potential 
exposure of children to dangerously high levels of lead is no 
simple fix. Some steps have already been taken to attempt to 
address the serious public health issues in the community. Just 
last month, the administration announced an expansion of Head 
Start and Early Head Start in Flint, Michigan with a one-time 
emergency influx of $3.6 million for these programs. 
Additionally, the Centers for Medicare & Medicaid Services, 
CMS, approved Michigan's application to establish a 5-year 
Medicaid demonstration, Flint Michigan Section 1115 
demonstration, in response to the public health emergency of 
lead exposure related to the Flint water system.
    The U.S. Department of Agriculture's Special Supplemental 
Nutrition Program for Women, Infants, and Children, WIC, is 
allowing participants to use WIC vouchers for ready-to-feed 
infant formula, which does not need to be mixed with water. 
Participants can also swap powdered formula for ready-to-feed 
formula. WIC participants are being referred to the local 
Health Department for lead screenings and provided nutrition 
education on mitigating lead absorption through dietary 
changes.
    These steps should help expand services available to ensure 
access to needed medical, social, educational, and other 
services. We are eager to hear of other options that may be 
employed to alleviate the potential impacts lead can have on 
health.
    I look forward to our hearing today. I thank all of the 
witnesses on both panels for participating in this important 
hearing.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    Today's hearing will provide an opportunity for our two 
subcommittees to examine the issues related to the ongoing 
drinking water crisis and related public health effects in 
Flint, Michigan. Members of the committee already have a basic 
understanding of the situation that led to the high levels of 
lead discovered in the Flint drinking water system. The focus 
of today's hearing will be how we can best respond to help 
affected families in Flint, and how we can best move forward 
with solutions to ensure this does not happen again.
    Our witnesses today will be able to provide key insights on 
what efforts both the Federal and State Government is 
undertaking and I look forward to their testimony.
    According to the Mayo Clinic, lead poisoning ``can severely 
effect mental and physical development'' and can even be fatal 
at high levels. From a public health standpoint, we will want 
to better understand how the administration has coordinated 
with the State of Michigan to provide technical assistance to 
State and local health departments including how they helped 
with case management and interventions with children identified 
with elevated blood lead levels.
    Addressing the long-term health implications of potential 
exposure of children to dangerously high levels of lead is no 
simple fix. Some steps have already been taken to attempt to 
address the serious public health issues in the community.
    Just last month, the administration announced an expansion 
of Head Start and Early Head Start in Flint, Michigan, with a 
one-time, emergency influx of $3.6 million for these programs.
    Additionally, the Centers for Medicare & Medicaid Services 
(CMS) approved Michigan's application to establish a 5-year 
Medicaid demonstration--``Flint Michigan Section 1115 
Demonstration''--in response to the public health emergency of 
lead exposure related to the Flint water system.
    The U.S. Department of Agriculture's (USDA) Special 
Supplemental Nutrition Program for Women, Infants, and Children 
(WIC) is allowing participants to use WIC vouchers for ready-
to-feed infant formula, which does not need to be mixed with 
water. Participants also can swap powdered formula for ready-
to-feed formula. WIC participants are being referred to the 
local health department for lead screenings and provided 
nutrition education on mitigating lead absorption through 
dietary changes.
    These steps should help expand services available to ensure 
access to needed medical, social, educational and other 
services. We are eager to hear of other options that may be 
employed to alleviate the potential impacts lead can have on 
health.

    Mr. Pitts. Anyone on our side seeking time? If not, we will 
go back and recognize the ranking member, Mr. Green, 5 minutes 
for an opening statement.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. Good morning and I 
thank all of you for being here for this important hearing. The 
drinking water crisis in Flint, Michigan is a national tragedy. 
It is a preventable, man-made disaster that should have been 
intervened months before it caught the Nation's attention. Most 
tragically are the estimated 8,000 children under the age of 6 
who were exposed to unsafe levels of lead who may need life-
long services to live fully productive lives.
    Childhood lead poisoning is a tragedy impacting communities 
throughout our United States. The Centers for Disease Control 
estimates that approximately 500,000 American children under 6 
have blood lead levels above 5 micrograms, the level 
recommended for public health actions to be initiated. Children 
from low-income communities, communities of color, like those 
in Flint, and communities I have the honor of representing in 
Houston and Harris County, Texas are two to three times more 
likely to have elevated blood levels based on CDC data. No 
child in America, regardless of background or income should be 
a victim of lead poisoning.
    The City of Houston has been proactive on this issue. 
Houston is one of the six cities to be part of the CDC Child 
Lead Poisoning Prevention Programs with the ambitious goal of 
eliminating childhood lead poisoning in the city by 2020. In 
2013 alone, over 24 children were screened for lead. And since 
1996, nearly 3,000 homes have been remediated for lead paint. I 
support these efforts but more must be done to ensure that 
every child is tested for lead and all older homes are lead 
paint free in Houston and across the Nation. Unfortunately, the 
CDC program was drastically cut in recent years from $30 
million in 2011 to $15 million last year. Health and Human 
Services working with Congress must ensure that this and other 
similar programs get the resources they need to protect our 
children from lead exposure.
    The recent study conducted by the American Water Works 
Association estimates that there are 6.1 million lead service 
lines utilized nationwide, serving 15 to 22 million Americans. 
These lead service lines are greater concentrated in the mid-
west and the northeast. LSLs are found in every State. My home 
State of Texas is estimated to have 270,000 lead service lines 
still in use, the eighth highest in the country. If we are 
going to eliminate lead out of our drinking water once and for 
all, our Nation must commit to the comprehensive plan to 
replace lead service lines. This will necessitate coordination 
between water utilities, cities, States, and EPA with a 
sizeable commitment of resources from the Federal Government to 
support local communities and low-income households, replacing 
their lead lines.
    I am proud to join my colleague, Representative Paul Tonko, 
as an original co-sponsor of the AQUA Act, which would 
reauthorize the Safe Drinking Water Act for the first time in 
13 years and give States greater resources to update our 
Nation's aging drinking water infrastructure by increasing 
funding for the State revolving fund.
    The Safe Drinking Water Act was passed by Congress 4 
decades ago, to ensure public drinking water supplies 
throughout the Nation. It is clear today that our Safe Drinking 
Water Act failed to protect the people of Flint and other 
communities around the country. As a community of jurisdiction, 
we need to know why.
    Much of the responsibility for the failure, to my peer's 
point, is the Lead and Copper Rule. The LCR has not seen major 
revisions in 20 years. I am very interested in hearing what EPA 
has done to modernize the Lead and Copper Rule and what 
revisions the public health and water utility experts before us 
today believe are necessary to ensure that our public water 
systems are lead-free.
    I hope that today's hearing will bring frank and truthful 
discussion on these critical issues in public health and that 
we find common ground in moving forward to ensure that this 
terrible tragedy never hits another great American city.
    Mr. Chairman, I hope our committee will use our 
jurisdiction to further us and do our best to do.
    And I would be glad to yield the remainder of my time to my 
colleague from North Carolina, Congressman Butterfield.
    Mr. Butterfield. Thank you, Mr. Green, and I will talk 
fast.
    On March 4th, members of the Congressional Black Caucus, 
the Congressional Progressive Caucus, and members of the House 
Democratic Leadership traveled to Flint to see the ongoing 
environmental disaster. I can only describe the frustration and 
harm to the residents of Flint as gut-wrenching. People have 
lost hope in their Government that have failed them at many 
levels, none more so than at the State level under the 
management of Governor Snyder. I am disappointed that the 
Governor is not here today to answer for his role and that of 
his administration in failing to protect the well-being of 
nearly 100,000 Flint residents.
    I understand that this is a hearing on lessons learned from 
Flint but this is not the first time people have been poisoned 
by their water and it will not be the last until we make real 
investments to fix the root of the problem.
    I represent a poor district in North Carolina, which, 
unfortunately, is no stranger to lead-poisoned water over the 
last decade. Cities of Durham, Greenville, and rural areas in 
Wayne County have all had unsafe drinking water. Levels of 
contamination in Durham exceeded 800 parts per billion. This is 
unacceptable, whether it is in Durham, Greenville, Wayne 
County, or in Flint, Michigan.
    Too often, Mr. Chairman, these problems incur in vulnerable 
communities and our response is too little, too late. Access to 
clean water should not be a luxury. It should be a guarantee. 
The tragedy in Flint has highlighted one of the key 
environmental justice issues of this generation and it is time 
to fix this inequity now.
    I thank the witnesses for coming today. I yield back.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the chair of the full committee, Mr. Upton for 5 
minutes for an opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    You know the tragic situation in Flint has captured the 
attention of the Nation, that is for sure. And the events that 
unfolded are simply unacceptable. And sadly, there are missteps 
at all levels of Government. What happened to Flint and its 
residents, especially the kids, being poisoned in their own 
home absolutely breaks your heart.
    And long after the media leaves Flint and the dust settles, 
families, real Michigan families will be grappling with this 
tragedy for decades, most likely, lifetimes. That is why 
today's hearing is going to take a look forward.
    I have said before and I am going to say it again that I am 
not interested in finger-pointing. There has been much of that 
done already. The focus needs to be on the folks who are 
impacted, especially the kids, and what we can do to ensure 
that this does not happen again anywhere.
    We are interested today in examining the underlying causes, 
various public health implications, and potential solutions 
moving forward. And while we can't rewind the clock to prevent 
the colossal failure of public trust, actions taken by both the 
State of Michigan and the Federal Government are important 
steps in the right direction.
    The administration and State have coordinated to 
disseminate public health education, provide case management 
and interventions for kids with elevated blood levels, and have 
worked to identify vulnerable populations in Flint who may need 
further targeted outreach.
    The Federal Government should work with the State to ensure 
that proper testing and monitoring is indeed taking place. We 
know that early education is a critical factor in combating the 
effects of lead exposure. In February, HHS awarded grants of 
$250,000 to two health centers in Flint. These funds are being 
used to hire additional personnel, providing more testing, 
treatment, outreach, and education on the lead exposures. HHS 
has also announced an expansion of Head Start and Early Head 
Start in Flint and a one-time emergency influx of $3.6 million 
for these programs. Thank you.
    In March, CMS also approved Michigan's application to 
establish a 5-year Medicaid demonstration project in response 
to the public health emergency. Michigan will expand coverage 
for kids up to age 21 and pregnant women with incomes up to and 
including 400 percent of the Federal poverty level who were 
served by the Flint water system from April of 2013 through a 
State-specified date. Additionally, Michigan has indicated that 
it will implement a State program to make available 
unsubsidized coverage for higher income populations in Flint.
    Here in the House, we also took action when we passed H.R. 
4470, the Safe Drinking Water Act Improved Compliance Act by a 
vote of 416 to 2. This bipartisan solution championed by Flint 
Congressman Dan Kildee and co-sponsored by the entire Michigan 
delegation ensures that the public is notified of excessive 
lead levels in the drinking water and also clarifies and 
improves the process of Federal, State, and city officials 
communicating promptly with each other, as they should. 
Communities across the country, mine included, and would note 
this is this week's my local paper, earlier this week The 
Herald Palladium, where the headline ``U.S. water systems 
repeatedly exceed Federal standards for lead,'' all communities 
are worried about water infrastructure issues.
    And our bipartisan bill, that passed again in the House, 
specifically calls on EPA to help communities develop a 
strategic plan for dealing with emergencies like this before 
they happen.
    Today, we expect to learn more from EPA about its plans 
with the Lead and Copper Rule under the Safe Drinking Water 
Act. We are also going to learn from Michigan's Keith Creagh 
and Nick Lyon on what steps the State and community are taking 
to get Flint water back up to national standards.
    On the second panel, we are going to hear from an 
association of water utilities in association with State 
drinking water regulators, what lessons that they have learned 
and what they are doing to apply those lessons.
    We are also going to hear from Dr. Mona Hanna-Attisha, 
Program Director, Pediatric Residency at the Hurley Children's 
Hospital. Dr. Mona, as she is called, provides an important 
perspective on children's health and I am pleased that she is 
with us so that we can continue to work together.
    It is my hope that this hearing is going to serve as a 
valuable opportunity to hear more about this important work, 
ideas for further steps that can be taken by the Federal 
Government and the State of Michigan to help the people of 
Flint and how Congress can ensure with confidence that this 
does not happen again.
    We cannot and we will not forget those in Flint who have 
been impacted by this tragedy. No amount of regrets or words 
can actually fix what is broken. We need concrete action.
    I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    The tragic situation in Flint, Michigan, has captured the 
attention of the Nation. The events that unfolded are 
unacceptable, and sadly there were missteps at all levels of 
Government. What happened to Flint and its residents, 
especially the kids being poisoned in their own home, 
absolutely breaks your heart. And long after the media leaves 
Flint and the dust settles--families--real Michigan families--
will be grappling with this tragedy for decades, indeed 
lifetimes.
    That's why today's hearing will be a look forward. I've 
said before and will say again: I am not interested in finger 
pointing. There has been much of that done already. The focus 
needs to be on the folks who were impacted--especially the 
children, and what we can do to ensure this happens never 
again, anywhere. We are interested today in examining the 
underlying causes, various public health implications, and 
potential solutions moving forward.
    While we can't rewind the clock to prevent the colossal 
failure of public trust, actions taken by both the State of 
Michigan and Federal Government are important steps in the 
right direction. The administration and State have coordinated 
to disseminate public health education, provide case management 
and interventions for children with elevated blood lead levels, 
and have worked to identify vulnerable populations in Flint who 
may need further, targeted outreach. The Federal Government 
should work with the State to ensure that proper testing and 
monitoring is taking place.
    We know that early education is a critical factor in 
combating the effects of lead exposure. In February HHS awarded 
grants of $250,000 to two health centers in Flint. These funds 
are being used to hire additional personnel and provide more 
testing, treatment, outreach, and education on the lead 
exposures. HHS has also announced an expansion of Head Start 
and Early Head Start in Flint, and a one time, emergency influx 
of $3.6 million for these programs.
    In March CMS also approved Michigan's application to 
establish a 5-year Medicaid demonstration project in response 
to the public health emergency. Michigan will expand coverage 
for children up to age 21 and to pregnant women with incomes up 
to and including 400 percent of the Federal poverty level who 
were served by the Flint water system from April 2014 through a 
State-specified date. Additionally, Michigan has indicated that 
it will implement a State program to make available 
unsubsidized coverage for higher-income populations in Flint.
    Here in the House we also took action and passed H.R. 4470, 
the Safe Drinking Water Act Improved Compliance Act, by a vote 
of 416-2. This bipartisan solution, championed by Flint 
Congressman Dan Kildee and co-sponsored by the entire Michigan 
delegation, ensures that the public is notified of excessive 
lead levels in their drinking water, and also clarifies and 
improves the process of Federal, State, and city officials 
communicating promptly with each other--as they should. 
Communities across the country, mine included are worried about 
water infrastructure issues. And our bipartisan bill 
specifically calls on EPA to help communities develop a 
strategic plan for dealing with emergencies like this before 
they happen.
    Today, we expect to learn more from EPA about its plans 
with the Lead and Copper Rule under the Safe Drinking Water 
Act. We will also learn from Michigan's Keith Creagh and Nick 
Lyons on what steps the State and community are taking to get 
Flint water back up to national standards. On the second panel, 
we will hear from an association of water utilities and an 
association of State drinking water regulators what lessons 
they have learned, and what they are doing to apply those 
lessons. We will also hear from Dr. Mona Hanna-Attisha, program 
director, pediatric residency at the Hurley Children's 
Hospital. Dr. Mona, as she is called, and I met in February, 
and I'm pleased she is with us today. Dr. Mona provides an 
important perspective on children's health and how we should be 
working together moving forward.
    It is my hope this hearing will serve as a valuable 
opportunity to hear more about this important work, ideas for 
further steps that can be taken by the Federal Government and 
State of Michigan to help the people of Flint, and how Congress 
can ensure with confidence this never happens again.
    We cannot and we will not forget those in Flint who have 
been impacted by this tragedy. No amount of regrets or words 
can actually fix what's broken--we need concrete action.

    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the ranking member of the full committee, Mr. 
Pallone, 5 minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman and thank you for 
holding this hearing today.
    This committee's jurisdiction over public health and the 
environment makes it uniquely positioned to address the future 
in Flint and I am glad we are beginning that process today.
    I remain extremely concerned about the water and health 
crisis. Flint has been without safe drinking water for far too 
long. It is important that we all recognize that all levels of 
Government will need to invest untold millions, if not 
billions, to mitigate the damage to Flint residents posed by 
this man-made disaster.
    This hearing is an opportunity to address how we move 
forward and ensure that anyone impacted has access to support 
and assistance as long as necessary. We must decide what is 
needed to fix Flint's infrastructure and address the potential 
impacts lead contamination may have on Flint's children, which 
will take years.
    The people in Flint need a fully functional drinking water 
system that delivers safe water to their homes. We need to take 
a hard look at whether the reestablishment of corrosion control 
is working to prevent further leaching from lead service lines 
and we need to know more about what is required to have those 
pipes removed and replaced.
    There are also significant health needs that must be 
addressed. Flint's residents, especially the children, will 
require a suite of services, including ongoing testing and 
monitoring for lead exposure. They will also likely need a 
range of behavioral health, educational, and social services 
going forward. Thankfully, our Medicaid program is structured 
just for emergencies like this one but moving forward, our task 
will be to ensure that every affected child in Flint is not 
only enrolled but also receiving the services they need through 
the Michigan's Medicaid program.
    Today is also an opportunity to begin to address the 
problems beyond Flint. For instance, in New Jersey, the Newark 
School System has ordered that water be turned off at 30 
schools, due to the presence of lead. Flint reminds us that if 
we fail to properly invest in health and safety, the 
consequences can be devastating and, in many instances, we will 
need to invest even more resources in response, if we wait. We 
must act now to ensure Americans throughout the country do not 
suffer from these same problems.
    Now, Congress banned the use of lead in new pipes 30 years 
ago but between 3.3 and 10 million older pipes remain in use 
throughout the country today. Families living in homes 
connected to these pipes all across the country are potentially 
at risk from lead leaching from these aging pipelines into 
their plumbing. Children are most affected by these aging 
pipelines and the associated negative health effects linked to 
lead exposure. The CDC estimates that half a million U.S. 
children ages 1 to 5 have blood lead levels that exceed the 
agency's guidelines of 5 micrograms per deciliter. As deeply 
concerning as these statistics are, they understate the 
problem. The current scientific consensus holds that no amount 
of lead in the blood is safe for children.
    It is long past time for a serious conversation in this 
country about the dangerous lack of Federal investment in our 
drinking water infrastructure and in our public health system. 
The Safe Drinking Water Act needs to be strengthened. EPA needs 
more authority to set health protective standards for all 
drinking water contaminants and we need to invest in our water 
systems to ensure safe drinking water. We also must ensure the 
necessary resources for providing healthcare to monitor and 
address lead poisoning, as well as preventing lead poisoning in 
the first place.
    So, I want to thank all the members of both subcommittees 
here today for your continued attention on this issue. I look 
forward to hearing from our witnesses about how we can all work 
together to ensure a strong future for the residents of Flint.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you for holding this hearing today. This committee's 
jurisdiction over public health and the environment makes us 
uniquely positioned to address the future in Flint, and I am 
glad we are beginning that process today.
    I remain extremely concerned about this water and health 
crisis. Flint has been without safe drinking water for far too 
long. It's important that we all recognize that all levels of 
Government will need to invest untold millions, if not 
billions, to mitigate the damage to Flint residents caused by 
this man-made disaster.
    This hearing is an opportunity to address how we move 
forward and ensure that anyone impacted has access to support 
and assistance as long as necessary. We must decide what is 
needed to fix Flint's infrastructure and address the potential 
impacts lead contamination may have on Flint's children, which 
will take years.
    The people in Flint need a fully functional drinking water 
system that delivers safe water to their homes. We need to take 
a hard look at whether the re-establishment of corrosion 
control is working to prevent further leaching from lead 
service lines. And, we need to know more about what is required 
to have those pipes removed and replaced.
    There are also significant health needs that must be 
addressed.
    Flint's residents, especially the children, will require a 
suite of services, including ongoing testing and monitoring for 
lead exposure. They will also likely need a range of behavioral 
health, educational, and social services going forward. 
Thankfully, our Medicaid program is structured just for 
emergencies like this one; moving forward, our task will be to 
ensure that every affected child in Flint is not only enrolled, 
but also receiving the services they need through Michigan's 
Medicaid program.
    Today is also an opportunity to begin to address the 
problems beyond Flint. For instance, in New Jersey, the Newark 
school system has ordered that water be turned off at 30 
schools due to the presence of lead. Flint reminds us that if 
we fail to properly invest in health and safety the 
consequences can be devastating, and, in many instances, we 
will need to invest even more resources in response if we wait. 
We must act now to ensure Americans throughout the country do 
not suffer from these same problems.
    Congress banned the use of lead in new pipes 30 years ago, 
but between 3.3 and 10 million older pipes remain in use 
throughout the country today. Families living in homes 
connected to these pipes all across the country are potentially 
at risk from lead leaching from these aging pipelines into 
their plumbing.
    Children are most affected by these aging pipelines and the 
associated negative health effects linked to lead exposure. The 
CDC estimates that half a million U.S. children ages one to 
five have blood lead levels that exceed the agency's guidelines 
of 5 micrograms per deciliter. As deeply concerning as these 
statistics are, they understate the problem. The current 
scientific consensus holds that no amount of lead in the blood 
is safe for children.
    It is long past time for a serious conversation in this 
country about the dangerous lack of Federal investment in our 
drinking water infrastructure and in our public health system. 
The Safe Drinking Water Act needs to be strengthened: EPA needs 
more authority to set health protective standards for all 
drinking water contaminants. And, we need to invest in our 
water systems to ensure safe drinking water. We also must 
ensure the necessary resources for providing health coverage to 
monitor and address lead poisoning as well as preventing lead 
poisoning in the first place.
    Thank you to all of the members of both subcommittees here 
today for your continued attention on this issue. I look 
forward to hearing from our witnesses about how we can all work 
together to ensure a strong future for the residents of Flint.

    Mr. Pallone. I would like to yield--I know I have a minute 
and half--half the time to Ms. Matsui and Mrs. Capps. We will 
start, I guess, with Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Pallone.
    First and foremost, we must do everything we can to support 
the women, children, and families in Flint affected by this 
public health crisis. Contaminated water and lead poisoning 
were the end result of a system that failed the people of Flint 
but Flint is far from the only community at risk.
    Today, we need to ask the hard questions and offer real 
solutions so that the suffering in Flint is not repeated in 
cities and towns across the Nation. The first step is 
increasing funding for our water infrastructure. This 
infrastructure must be resilient and sustainable because it is 
also our first line of defense.
    We also need to ensure that our public health 
infrastructure is robust so we can both prevent and respond to 
crises like those in Flint. This means investments in public 
health, surveillance, prevention and screening, and treatment. 
I hope today we can learn about ways that can support or 
programs in our local health departments, as well as Medicaid 
programs to prevent and respond to public health crises.
    Thank you, and I yield to Mrs. Capps.
    Mrs. Capps. Thank you for yielding.
    You know all people have the right to safe, reliable 
drinking water, no matter where you live. This crisis shines a 
spotlight on our country's insufficient water systems and 
potential devastation that can result from not investing in our 
Nation's most important infrastructure.
    The central need for safe access to drinking water is 
exactly why Representative Tonko and I and several others 
introduced the Assistance Quality and Affordability Act a 
little over a month ago. The bill marks a much-needed start to 
address the issues facing our crumbling drinking water 
infrastructure and I am happy that several components from my 
Water Infrastructure Resiliency and Sustainability Act are 
among the many important provisions included to help ensure 
that our water is available and safe.
    But while we could spend our time talking about those, the 
fact is that lack of access to clean water threatens our 
families' health and our well-being. It compromises our very 
way of life. So, today's hearing is an important first step in 
what I hope will be a broader conversation on this imminent 
threat to our public health. It cannot wait. We must act now.
    And I yield back to my colleague.
    Mr. Pitts. The chairman thanks the gentlelady.
    I now recognize the ranking member of the Environment and 
the Economy Subcommittee, Mr. Tonko, 5 minutes for an opening 
statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses for being here today for what I believe is a long 
overdue hearing.
    I look forward to hearing what is being done by all levels 
of Government in response to this tragic and unnecessary 
crisis. By now, the details and time line of events that led to 
this situation in Flint have been well-established but there 
are still many questions to ask and many lessons left to learn.
    There is no safe level of lead in drinking water, yet it 
exists throughout our water systems in pipes, solder, and 
fixtures. The consequences of lead exposure for the people of 
Flint will be long-term and will require Government assistance 
in education, public health, and mental health services for 
decades to come. It all affect the city's economy. And this 
event has lost its residents' trust in Government. So be it for 
austerity approaches.
    We know the root causes of this catastrophe. I do not want 
to litigate the details that led to this tragedy but I do 
believe it is a clear case of environmental injustice caused by 
public officials that cared more about saving dollars than 
about serving the health and welfare of the people for whom 
they speak. There is no question there were failures and 
failures of Government. There were delays in acknowledging and 
in serious problems. The evidence and concerns of legitimate 
experts and public were dismissed. Some causes were also 
structural.
    Flint's population decline in the past 5 decades has put 
tremendous stress on the city, on its water system, and on its 
residents. All of these issues are underlined by unaffordable 
water rates and aging infrastructure, which are sadly all too 
common in our country. Flint should open people's eyes, 
especially those in public service that we cannot take safe 
drinking water for granted. Water supports every life and water 
supports every job. And so, therefore, our drinking water 
systems cannot and should not be ignored.
    Our systems require investments. That is right, investments 
to upgrade, maintain, and replace basic physical infrastructure 
to ensure public health. Such investments are basic and cannot 
be denied for the sake of austerity. At the end of the day, 
someone will pay for our nationwide neglect of drinking water 
systems. And we have seen that paying later, after a crisis, is 
more expensive than investing now. In fact, my engineering 
community, of which I am part, tells me that we pay 10 times 
more when we wait for the break in a line to occur than to have 
done the preventative therapy.
    We will hear about the steps that must be taken moving 
forward, clarifying and strengthening the Lead and Copper Rule, 
the risks of partial lead line replacement, issues around 
corrosion control and improving our testing procedures. Many of 
these issues have been discussed by the Flint Water Advisory 
Task Force's report and the National Drinking Water Advisory 
Council Lead and Copper Rule Working Group's report. These are 
important issues but I want to be clear that these issues do 
not end at Flint's city limits. We have been severely 
underinvesting in our drinking water infrastructure for decades 
and now we are seeing the dangerous and costly consequences. 
Why are we surprised?
    Removing lead in drinking water should be a national 
priority with a national discussion and it must be done in a 
comprehensive and planned way. Corrosion control treatment will 
be part of the solution but it is not a final answer.
    USA Today has reported that nearly 2,000 water systems 
across all of our 50 States have exceeded the EPA's lead action 
level within the past 4 years. That is strictly unacceptable. 
There are millions of lead pipes across this country, and, 
given our track record for replacement, many lead pipes will 
remain for decades without a more proactive replacement plan.
    We know what we must do. Do we have the courage to go 
forward? We must improve lead testing, monitoring, and public 
notice to act on risks quickly. We need a focus on protecting 
vulnerable populations. We need to address lead exposure in 
schools and assist low-income homeowners with lead line 
replacement. And we need a sustained and robust commitment to 
upgrade our water systems and remove those lead components.
    The current Federal commitment is simply not good enough. 
We can't even say we lead by example. We must step up to help 
States and local communities finance these projects.
    A majority of the Democrats on this committee have co-
sponsored the AQUA Act, which would reauthorize the drinking 
water SRF at Recovery Act levels and beyond. It also makes some 
much-needed updates to the Safe Drinking Water Act, including 
support for disadvantaged communities and additional emphases 
on the sustainability and affordability of our water systems. 
We want to be partners in this effort but unless we get serious 
about addressing these bigger issues of deteriorating 
infrastructure and unaffordable drinking water, it is only a 
matter of time before we are demanding another hearing on 
another preventable tragedy.
    So, I hope that we can count on all members of this 
committee to make sure that the people of Flint, and in 
particular the children of Flint, get the assistance that they 
need and that they deserve. And I hope that we will do what is 
necessary and expand the Federal commitment to ensure other 
communities get the resources that they need to prevent these 
future tragedies.
    With that, Mr. Chair, I yield back. Let's do the right 
thing.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the chair of the Environment and Economy 
Subcommittee, Mr. Shimkus, for 5 minutes for an opening 
statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman for recognizing me and 
yielding me this time.
    At one level, I am glad to see that we are looking into the 
tragedy in Flint, Michigan and, on another, I am saddened and 
disappointed that it even happened in the first place.
    The drinking water crisis that the residents of Flint, 
Michigan have had to endure has been called a tragedy so much 
that the word loses its meaning. I know there have been 
concerted efforts to assign blame for these problems and other 
congressional committees have spent trying to look into who 
caused this or who didn't do enough to stop it. I have decided 
that there are very few white hats in this picture.
     Flint was let down by its Federal and State Government and 
its local officials and the residents there are right to be 
skeptical. We need to look into what is being done to make the 
situation better, delve into what the schedule looks like to 
restore good drinking water to folks, and what the long-term 
plan is to take care of the health and the infrastructure of 
Flint. Ultimately, we need to ensure coordination, openness, 
and cooperation between Government water utilities and the 
public so we can feel confidence that the work is being done.
    As part of this examination, we should appreciate what 
changes the Environmental Protection Agency is considering as 
part of its long-term revisions to the Lead and Copper Rules. I 
recognize EPA has been getting input from the National Drinking 
Water Advisory Council and others but we should examine what 
the impact of some of those decisions might have on 
communities. We all want to protect public health but there are 
a finite amount of resources, Federal, State, local, and 
private that can be brought to bear to address all issues. We 
need to prioritize the public health benefits we are addressing 
and getting. We want appropriate attention placed on this issue 
but not at the expense of addressing other pressing public 
issues.
    I want to thank all of our witnesses for joining us today 
to give us their perspective. I want to welcome back Mr. Estes-
Smargiassi, who testified on lead service lines 6 years ago 
before this committee.
    Again, I thank you, Mr. Chairman, for the time you have 
yielded to me and I yield back the balance of my time.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    At one level I am glad we are looking into the tragedy in 
Flint, Michigan, and on another one I am saddened and 
disappointed that it even happened in the first place.
    The drinking water crisis that the residents of Flint, 
Michigan have had to endure has been called a tragedy so much 
that the word loses its meaning.
    I know there have been concerted efforts to assign blame 
for these problems and other congressional committees have 
spent time trying to look into who caused this or didn't do 
enough to stop it. I have decided there are very few ``white 
hats'' in this picture. Flint was let down by its Federal and 
State Government, and its local officials and the residents 
there are right to be skeptical.
    We need to look into what is being done to make this 
situation better, delve into what the schedule looks like to 
restore good drinking water to folks, and what the long-term 
plan is to take care of the health and infrastructure of Flint. 
Ultimately, we need to ensure coordination, openness, and 
cooperation between Government, water utilities, and the public 
fuel confidence in the work being done.
    As part of this examination, we should appreciate what 
changes the Environmental Protection Agency is considering as 
part of its Long-Term revisions to the Lead and Copper Rule. I 
recognize EPA has been getting input from the National Drinking 
Water Advisory Council and others, but we should examine what 
the impact of some of those decisions might have on 
communities.
    We all want to protect public health, but there are a 
finite amount of resources--Federal, State, and local, and 
private--that can be brought to bear to address all issues. We 
need to prioritize the public health benefits we are addressing 
and getting. We want appropriate attention placed on this 
issue, but not at the expense of addressing other pressing 
public issues.
    I want to thank all our witnesses for joining us today to 
give us their perspective. I want to welcome back Mr. Estes-
Smargiassi who testified on lead service lines 6 years ago 
before this committee.

    Mr. Pitts. The Chair thanks the gentleman. That concludes 
the opening statements. As usual, all members' written opening 
statements will be made a part of the record.
    We will now proceed to our first panel. And I apologize for 
the technical difficulties. I urge members, as they walk down 
the center aisle, not to bump the wires. It will result in all 
that cracking you are hearing. And the lights on the table do 
not work. So, at 4 minutes, I will give you a couple of taps so 
you know you have 1 minute left. At 5 minutes, I will do three 
taps for you to be able to wrap-up.
    And I will introduce the first panel in the order of their 
presentations. Your written statements will be made a part of 
the record but you will each be given 5 minutes to summarize.
    And in the order of their presentations, we have Joel 
Beauvais, Deputy Assistant Administrator for the Office of 
Water, U.S. Environmental Protection Agency; and then Dr. 
Nicole Lurie, Assistant Secretary for Preparedness and 
Response, U.S. Department of Health and Human Services; Mr. 
Nick Lyon, Director of Michigan Department of Health and Human 
Services; and Keith Creagh, Director of Michigan Department of 
Environmental Quality.
    Thank you for coming. We appreciate you coming today and as 
I said, you will each be given 5 minutes to summarize your 
testimony. And at this point, the Chair recognizes Mr. 
Beauvais, 5 minutes for his opening statement.

 STATEMENTS OF JOEL BEAUVAIS, DEPUTY ASSISTANT ADMINISTRATOR, 
OFFICE OF WATER, ENVIRONMENTAL PROTECTION AGENCY; NICOLE LURIE, 
   M.D., ASSISTANT SECRETARY FOR PREPAREDNESS AND RESPONSE, 
 DEPARTMENT OF HEALTH AND HUMAN SERVICES; NICK LYON, DIRECTOR, 
  MICHIGAN DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND KEITH 
 CREAGH, DIRECTOR, MICHIGAN DEPARTMENT OF ENVIRONMENTAL QUALITY

                   STATEMENT OF JOEL BEAUVAIS

    Mr. Beauvais. Thank you, Chairman Pitts, and good morning 
to you and to Chairman Upton, to Chairman Shimkus, Ranking 
Member Green, Ranking Member Tonko, and distinguished members 
of the committee. Thank you for the opportunity to testify 
about EPA's response to the drinking water crisis in Flint, 
Michigan.
    Under the Safe Drinking Water Act, Congress directed the 
EPA to set national standards to protect public health but 
assigned primary responsibility to the States to implement 
these regulations. EPA maintains Federal oversight of the 
States' drinking water programs. That system, while imperfect, 
has achieved major improvements in drinking water safety 
nationwide. The situation in Flint, however, underscores the 
need for urgent and sustained action by Federal, State, tribal 
and local governments, and drinking water system owners and 
operators nationwide to address risks from lead in drinking 
water and to ensure that nothing like this ever happens again.
    As part of the coordinated Federal effort led by the U.S. 
Department of Health and Human Services, EPA is working closely 
with the State of Michigan and the City of Flint to address the 
crisis in Flint. Since October 2015, EPA's Flint Safe Drinking 
Water Task Force, composed of agency experts in the areas of 
corrosion control and others, has provided technical assistance 
to the city and to MDEQ on steps needed to re-optimize 
corrosion control and ensure proper lead testing.
    On January 21, 2016, EPA issued an Emergency Order under 
section 1431 of the Safe Drinking Water Act, directing the 
State of Michigan, MDEQ, and the City of Flint to take actions 
necessary to ensure that corrosion control is re-optimized and 
that the city establishes the capacity to operate its drinking 
water system in compliance with the requirements of the law.
    EPA is an integral part of the Federal response effort and 
has established a significant presence on the ground, which 
includes response personnel, scientists, water quality experts, 
community involvement coordinators, and support staff. In 
addition to providing ongoing technical assistance through the 
EPA Flint Task Force, EPA is conducting a multi-pronged effort 
to collect and analyze drinking water samples taken from around 
the city to help ensure transparency and accountability in 
assessing the status of Flint's system. Sampling results will 
continue to be shared with individual homeowners and are 
publicly available on EPA's Web site.
    EPA has also taken several concrete steps to address 
systemic issues raised during this crisis. EPA's Administrator 
McCarthy has directed a review of MDEQ's implementation of the 
Safe Drinking Water Act, has called on EPA's Inspector General 
to evaluate EPA's response to the Flint crisis, and issued an 
agency-wide elevation memo encouraging staff and managers to 
raise issues of public health concern and to assure appropriate 
and prompt action to address such concerns.
    In addition, EPA is working with States that have primacy 
in implementing the Safe Drinking Water Act to strengthen 
implementation of the Lead and Copper Rule, which covers 
approximately 68,000 public water systems nationwide. EPA 
recently sent letters to the Governors and drinking water 
regulatory agency heads of every primacy State in the country 
asking them to work with EPA to strengthen implementation of 
the Rule. That includes a series of specific actions to enhance 
transparency, accountability, and communication of timely 
information to the public.
    In addition, EPA has been actively working on revisions to 
improve the Lead and Copper Rule. In December 2015, we received 
extensive recommendations on potential revisions from our 
National Drinking Water Advisory Council, composed of members 
of the general public, State and local agencies, and private 
groups, as well as from other concerned stakeholders. We are 
carefully evaluating this input and the national experience in 
implementing the current rule, including the events in Flint, 
to develop proposed improvements. EPA expects to propose 
revisions to the Rule in 2017 and will welcome comments robust 
engagement and comments from the public and other interested 
parties.
    Finally, the situation in Flint highlights the need for 
broader national action to address our drinking water 
infrastructure. In many areas across our country, that 
infrastructure is aging and severely underfunded, particularly 
in low-income communities, which may have the most difficulty 
securing traditional funding through rate increases or 
municipal bonds. As EPA continues to work to strengthen public 
health protections through regulatory policy and 
implementation, we also need a serious national conversation 
about how to advance the investments and technologies necessary 
to continue the delivery of safe drinking water to all American 
families.
    I thank you for the opportunity to testify today and 
welcome your questions.
    [The prepared statement of Mr. Beauvais follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes Dr. Lurie, 5 minutes for opening statements.

                   STATEMENT OF NICOLE LURIE

    Dr. Lurie. Thank you Chairman Pitts, Chairman Shimkus, 
Chairman Upton, Ranking Members Green, Tonko, and Pallone. 
Thank you, Mr. Upton, and distinguished members of the 
committee. I appreciate the opportunity to testify about the 
water situation in Flint and the Federal Government's response.
    I am Dr. Nicole Lurie, the Assistant Secretary for 
Preparedness and Response at the Department of Health and Human 
Services. I am also the lead Federal official for the response. 
And in that role, my job is to coordinate and bring the entire 
Federal family together to deliver resources to help the people 
in Flint.
    When I was first asked to take on this role, I made the 
decision to base the Federal response in Flint, not in 
Washington or in Lansing. I established a unified coordination 
group there to bring Federal, State, and local partners 
together to assess the situation and align resources to support 
the community.
    Since then, I have been in Flint almost every week meeting 
with community leaders, Government officials and, most 
importantly, residents in Flint to ensure we are doing 
everything possible. We have had up to 110 people working on 
the ground at any one time, including staff from EPA, FEMA, 
USDA, HUD, HHS, and the Department of Education, as well as 
hundreds of others working remotely. We have had four major 
goals: providing safe water, supporting efforts to restore the 
water system and mitigating the health effects of lead 
exposure.
    I am pleased to report we have made real progress. FEMA has 
provided millions of liters of bottled water and tens of 
thousands of filters and cartridges to residents. Numerous 
partnerships have successfully delivered these commodities door 
to door and through points of distribution and I am confident 
that Flint residents have access to clean water for now.
    As you have heard, EPA is focused on helping the community 
restore their water system. Our major focus has been 
understanding the extent of the lead exposure and doing 
everything we can to mitigate those effects. My first 
observation on arriving in Flint was that the community was 
scared, angry, and traumatized. In response, we immediately 
deployed teams from the U.S. Public Health Service to provide 
psychological first aid and to train others in those 
techniques. Behavioral health remains one of my priorities and 
is one shared by the community.
    In order to fully assess the potential impact of exposure, 
CDC advised that all children should have the opportunity to be 
lead tested or retested. There have been many, many testing 
events across the city and what I can tell you is that fewer 
than one percent of children have high blood levels now. But we 
all know that all children in Flint were exposed to lead at the 
height of the crisis and CDC is completing an independent 
analysis going back before the water switch to the Flint River 
to further inform our mitigation strategies.
    Another focus has been to ensure that all children with 
elevated lead levels receive timely follow-up from a nurse case 
manager so that we can link these kids to important services 
through their medical homes. CDC has provided extra personnel 
to support the State and county in achieving this goal.
    It will also be critical to follow kids over time. We are 
in the process of planning a long-term voluntary registry in 
collaboration with the State, local, and academic partners and 
this will be critical to the long-term monitoring follow-up of 
kids with lead effects.
    Beginning early in the response, I began to hear from the 
community about concerns with [audio malfunction in hearing 
room]. I asked CDC to state in a comprehensive evaluation to 
see whether there might additional substances in the water that 
could be causing and this investigation is underway.
    We know that a suite of interventions focused on early 
brain development can help kids overcome many of the harmful 
effects of lead exposure and these include access to 
healthcare, developmental and behavioral assessments, early 
childhood education and good nutrition. As you heard from Mr. 
Upton, HHS has approved an historic Medicaid expansion covering 
children through age 21 and up to 400 percent of the Federal 
poverty limit or approximately 15,000 additional children and 
pregnant women in the Flint area. We hope the State can move 
forward with this important enhancement as soon as possible.
    HHS has also provided an additional $3.6 million in one-
time emergency funding to Flint's existing Head Start programs 
and made additional funding available to two community health 
centers to expand access, case management and behavioral health 
services. And the Department of Agriculture is helping the 
State increase community access to foods that help combat the 
effects of lead in this community, which still lacks a full 
service grocery store. Additionally, this summer, USDA will 
extend nutrition benefits to an additional 15,000 students.
    In closing, this has truly been a whole community whole of 
Government response. Our progress in Flint has been made 
possible by strong partnership and coordination between 
Federal, State, and local partners. Yet, there is still work to 
be done to assure the best outcomes for Flint families. The 
Federal Government will continue to support Flint's recovery 
with the goal of helping its children and families lead happy, 
healthy, and productive lives. Thank you.
    [The prepared statement of Dr. Lurie follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Pitts. The Chair thanks the gentlelady and now Mr. 
Lyon, you are recognized for 5 minutes for your opening 
statement.

                     STATEMENT OF NICK LYON

    Mr. Lyon. Thank you, Chairmen Pitts and Shimkus, Ranking 
Members Tonko and Green, and members of the subcommittees for 
inviting me to this joint subcommittee hearing to discuss these 
important issues. I would like to also thank Congressmen Kildee 
and Upton for being here today.
    My priority as Director for Michigan Department of Health 
and Human Services is to ensure a healthy, safe, and stable 
environment for all of Michigan's families. I know the people 
of Flint are hurt. I know that they are upset. And I recognize 
that there is anger and mistrust. Rightfully so. Despite the 
efforts of many dedicated and well-qualified people, both 
within my department and locally, the citizens deserve better.
    We have initiated an internal review, in addition to the 
joint investigation being completed by the Office of Auditor 
General and Office of Inspector General. We will address 
whatever shortcomings are identified by these reviews within my 
department and will properly address issues and factors that 
affected our response. We know that we could have done better.
    My heart goes out to the families impacted and that is why 
I am here today, to talk about what Governor Snyder's 
administration and particularly my department is doing to 
provide relief to the people of Flint and ensure that the 
necessary services are provided in the future. We are now 
looking forward at what we can do to improve the health and 
quality of not only Flint but for all people in Michigan.
    We have already taken steps to restructure areas within our 
department to better align programs with surveillance and to 
ensure local health issues, such as the ones we are discussing 
today, are quickly elevated for immediate follow-up. For 
example, we have increased case management for all children 
with elevated blood lead levels in Flint to ensure that their 
health is immediately being addressed. We have funded 
additional nurse case managers within the Genesee County Health 
Department to work with families and we are aggressively 
working to increase services in the community. We know that 
outreach and continued care is important.
    And as part of our nurse case management efforts in Flint, 
we are now regularly testing water as a potential source of 
lead during follow-up with families, in addition to considering 
paint, soil, and dust exposures in the home.
    We are also working close with our partners in Medicaid, 
our Medicaid health plans, to increase the number of children 
in Flint tested. While lead testing is required for all 
children enrolled in Medicaid, this is an area we continue to 
improve upon with our recent rebid in Michigan's Medicaid 
Health Plans emphasizing the need. We are also working closely 
with our healthcare providers to ensure that all children are 
screened appropriately.
    In addition, the Flint Water Advisory Task Force has issued 
a comprehensive set of recommendations that we are actively 
reviewing for implementation. For instance, we know that good 
nutrition works to prevent the absorption of lead into the 
body. To increase access to sources of nutrition foods in 
Flint, we are working closely with the Food Bank of Eastern 
Michigan to arrange mobile food bank deliveries in 23 sites 
across the city. We are assisting the Michigan Department of 
Education with the coordination and placement of nine new 
nurses in the Flint community and we are also adding additional 
schools to our existing program for adolescent health centers.
    We are developing and coordinating long-term educational 
and behavioral screening tools, services, and supports for the 
children of Flint. We are working with the Genesee Health 
System and the Flint Community Resilience Group to develop and 
implement mental health first aid to assist the community in 
their recovery. And most recently, we are working to finalize a 
contract with the Genesee County Community Action Resource 
Department to replace water heaters for residents whose water 
heaters may have been damaged.
    Throughout this emergency, we have greatly appreciated the 
support of our Federal partners. Our department has six Federal 
Centers for Disease Control and Prevention personnel embedded 
within our programs, who continue to work closely with the 
Genesee County Health Department and the Michigan Department of 
Health and Human Services as part of our efforts.
    Through those resources that we have available to us, we 
have worked closely with our partners in the Agency for Toxic 
Substances and Disease Registry to create and release a 
Legionella toolkit for healthcare facilities and large 
buildings to prevent the growth of Legionella in water systems. 
Ultimately, our hope is to help other communities in Michigan 
and across the country learn, as we have, how to prepare for 
and even prevent lead exposure and Legionella outbreaks such as 
the one that occurred in Flint.
    We also appreciate the assistance of our partners at the 
Centers for Medicare & Medicaid and Services who have approved 
our application to extend Medicaid benefits to pregnant women 
and children up to the age of 21 up to 400 percent of the 
Federal poverty level who were served by the Flint water 
system. This waiver will ensure access to primary are and 
provide targeted case management services to coordinate all 
physical and behavioral health related services for children 
potentially exposed to lead.
    The Substance Abuse and Mental Health Services 
Administration is providing technical assistance in many areas, 
and the United States Department of Agriculture has approved 
our requests to utilize our WIC Program resources to test 
children for lead and enhance our nutritional education 
efforts.
    In implementing Governor Snyder's action plan, we are 
working with Dr. Hanna-Attisha and Professor Marc Edwards 
through the Flint Water Interagency Coordinating Committee.
    I want to thank Dr. Mona Hanna-Attisha, who will be 
testifying on the next panel, for bringing this issue to light 
and for continuing every day to help the families and children 
of Flint. She has been an invaluable partner as we deliver on 
our commitment to provide the necessary health care services to 
these families.
    On behalf of the Snyder administration, I want to assure 
you that we stand committed to fixing this problem for the 
people of Flint and to ensure this does not happen again in 
Michigan or anywhere else.
    Thank you again for the opportunity to testify and I look 
forward to answering your questions.
    [The prepared statement of Mr. Lyon follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Pitts. The Chair thanks the gentleman.
    I know recognize Mr. Creagh for 5 minutes for his opening 
statement.

                   STATEMENT OF KEITH CREAGH

    Mr. Creagh. Good morning and thank you for the opportunity 
to appear before this committee today.
    I am Keith Creagh and on January 4, 2016 I was appointed to 
be the Interim Director of the Michigan Department of 
Environmental Quality. When I testified before the House 
Committee on Oversight and Government Reform on February 3, 
2016, my testimony described how all levels of Government did 
nothing together to protect the people of Flint, resulting in a 
water emergency. Since that time, Government at all levels has 
begun working cooperatively to help the people of Flint. I look 
forward to discussing the progress made to provide resources 
and results for the people of Flint, as well as some of the 
lessons learned.
    One of my first objectives was to implement changes in the 
culture of the department. We refocused our primary mission to 
protecting the environment and public health. In reviewing the 
water source switch to the Flint River, we took a technical 
approach to compliance with the Federal Lead and Copper Rule 
without adequately addressing public concern. One of the first 
lessons learned is that infrastructure changes are complex, 
especially in aging systems, and regulatory agencies need to 
engage with the experts and the public in a more meaningful 
way. Much of the progress to date has been achieved through the 
Flint Water Interagency Coordinating Committee. The 
Coordinating Committee is comprised of city, county, and State 
officials, private entities, and outside experts such as Dr. 
Marc Edwards and Dr. Mona Hanna-Attisha. The objective of the 
Coordinating Committee is to connect all available resources to 
assist the people of Flint and mitigate the impact of lead 
exposure to the committee.
    Just last Friday, the Coordinating Committee heard 
presentations on the current status of the Flint water system. 
The data indicates that the water quality is improving and that 
protective coating on the pipes is being restored; however, it 
is still unstable.
    The information sharing that has occurred as a result of 
the Coordinating Committee demonstrates a second lesson: in 
order to rebuild trust, Government at all levels needs to share 
information in order for there to be effective discussions with 
experts and citizens. The Safe Drinking Water Act Improved 
Compliance Awareness Act, passed in February by the House, is a 
good first step.
    The State of Michigan has appropriated over $68 million to 
address the water issues in Flint, with another $165 million 
pending. $30 million has been appropriated for the City of 
Flint to credit residents for water used for drinking, cooking 
and bathing from April 2014 through April 2016. The State is 
paying for the reconnections to the Great Lakes Water Authority 
to supply finished treated drinking water to Flint. $18 million 
has been set aside to provide long-term follow-up care to 
children.
    The Department if paying for water sampling and testing, 
residential plumbing assessments and reliability studies. We 
have established a sentinel water testing program through which 
over 600 residents are sampling their water every 2 weeks. The 
results from the past four rounds of sampling show that over 92 
percent of the households have results at or below 15 parts per 
billion of lead but, again, it shows instability.
    The Department also supported a pilot service line 
replacement program in Flint and, additionally, the State has 
provided $2 million to the City of Flint for Mayor Weaver's 
FAST Start Program to remove lead service lines with an 
additional $25 million in a pending supplemental appropriation.
    Moving forward, the Department is committed to supporting 
the City of Flint's efforts to identify and prioritize 
replacement of unsafe service lines and other infrastructure to 
ensure the integrity of the drinking water system.
    The third lesson is simply replacing lead pipes alone will 
not solve this problem. Many of the high lead levels come from 
internal fixture that either have lead components, lead solder, 
or have lead particles trapped in faucet aerators. A 
comprehensive lead education campaign must continue past the 
immediate emergency. We are working with EPA and outside 
experts to develop guidelines that will prohibit partial line 
replacement and establish replacement priority.
    Furthermore, a long-term strategy needs to be implemented 
that upgrades and maintains an appropriately sized water 
infrastructure for Flint.
    The fourth lesson is States should treat the Federal rule 
as a floor, not a ceiling. Michigan is proposing to establish a 
comprehensive Michigan Lead and Copper Rule to ensure necessary 
public health protections that exceed the existing Federal 
rule. When it comes to protecting public health, States cannot 
wait for EPA's issuance of an updated rules. States must be 
willing to go above and beyond what the Federal Government 
standards are, whenever necessary to ensure public health is 
protected.
    We will continue to work with the City of Flint regarding 
its future water needs. We are committed to continuing the 
collaborative process already established with all levels of 
Government, outside experts and citizens to resolve the water 
emergency. We hope that the effective implementation of this 
approach and the lessons learned will prevent the reoccurrence 
of such emergencies in Michigan and other parts of the country.
    Thank you for the opportunity and I look forward to your 
questions.
    [The prepared statement of Mr. Creagh follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
    
    [Additional material submitted for the record by Mr. Creagh 
has been retained in committee files and also is available at 
http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104765.]
    Mr. Pitts. The Chair thanks the gentleman, thanks each of 
the witnesses for their testimony.
    I will begin the questioning and recognize myself 5 minutes 
for that purpose.
    Dr. Lurie, I will begin with you. Can you talk specifically 
about the CDC Agency for Toxic Substances and Disease Registry 
response on the ground in Flint? What will their role be moving 
forward?
    Dr. Lurie. The Agency for Toxic Substances and Disease 
Research or ATSDR, as it is known, has played the lead role in 
helping with the analysis of the lead data to date, providing 
case management services and helping the State and county with 
those and going forward will be instrumental in setting up a 
registry, as well as a strengthened lead program going forward.
    Mr. Pitts. Thank you. Mr. Lyon, what changes are you 
implementing at the Michigan Department of Health and Human 
Services that will help reduce lead exposure for Michigan's 
children in the future? And would it be wise for other States 
to adopt these changes?
    Mr. Lyon. I think one of the things we have learned through 
this, and part of the education for all of us is the potential 
impact on these water systems that have the presence of lead. 
Traditionally, really lead in the past has been a public health 
success. Over the past several decades, the amount of lead in 
children has decreased drastically with the reduction of lead-
based gasoline and lead-based paints but we now have to be 
cognizant that there is a new lead danger. As Dr. Lurie has 
noted and the chairman has noted, there is no safe level of 
lead in the bloodstream. And I think we have to be cognizant 
going forward of water as a potential source.
    As part of what we have done specifically, as part of our 
lead abatement program in environmental investigations, we are 
looking at water in the households in Flint and we are looking 
at fixtures and aerators and things of that nature as part of 
the environmental investigation and potentially replacing those 
items if we believe that is the source of the problem.
    Mr. Pitts. Thank you. Mr. Beauvais, is EPA performing 
compliance verifications of drinking water systems under the 
Safe Drinking Water Act? And was there ever a pause in the use 
of this authority? If so, when and why?
    Mr. Beauvais. EPA exercises its oversight of State drinking 
water programs with primacy through a number of mechanisms and 
it has done that over the years and we are engaged in a 
specific effort on Lead and Copper Rule oversight right now 
where regional offices across the country are meeting with 
every State primacy agency to ensure that there is appropriate 
attention and resources being given to Lead and Copper Rules 
oversight that lead action level exceedances are being 
addressed, that corrosion control is being implemented where it 
is supposed to be.
    Mr. Pitts. OK and, Mr. Creagh, I have heard about the many 
testing programs occurring in the City of Flint. And the one I 
am interested in learning more about is the sentinel program. 
What is that? Can you give me some additional information about 
what it is demonstrating?
    Mr. Creagh. Yes, sir, Mr. Chairman, I can. So, the sentinel 
point was where we, in partnership with EPA, actually 
identified over 600 sites throughout the City of Flint looking 
at a whole variety of factors using some R. Mona Hanna-
Attisha's information on age of water, where lead service lines 
were, where various communities were. And so every 2 weeks we 
test those individual homes. They have been actually trained on 
how to take the sample, making sure using wide mouth 
appropriate flow and we collect those and then analyze those. 
And so what that does is it gives us a snapshot, if you will, 
every 2 weeks, of the integrity and viability of a water system 
in Flint.
    Mr. Pitts. And how is the community involved in this?
    Mr. Creagh. So, as we respond to individuals, we have a 
community member that has hired a local plumber, that has hired 
a DEQ inspector, and, at times, our Department of Health and 
Human Service or local public health individuals. That is 
especially true when there is high lead levels above 150 parts 
per billion. We are in the house within 2 days. If you are 
above 100 parts per billion, we are in the house within 7 days 
and if you are above 15 parts per billion, we communicate with 
you and ask you to take another sample.
    Mr. Pitts. Thank you. My time has expired.
    The Chair recognizes the ranking member, Mr. Green, 5 
minutes for questions.
    Mr. Green. Thank you, Mr. Chairman. I thank our panel for 
being here.
    The Safe Drinking Water Act is supposed to ensure safe and 
reliable drinking water for customers of public drinking water 
systems across the United States. Clearly, it failed the 
citizens of Flint and we, in Congress, should be asking why. It 
seems that the short answer is that because the Lead and Copper 
Rule or LCR is in serious need of revision.
    Mr. Beauvais, what is the status of the revisions for the 
LCR and when will they be completed?
    Mr. Beauvais. We are actively working on developing 
proposed revisions to the rule. As I mentioned in my testimony 
this past December, we received extensive recommendations from 
our National Drinking Water Advisory Council, as well as input 
from a number of other concerned stakeholders. So, we are 
carefully considering that input. We will be engaging with 
stakeholders over the coming months to develop a proposed rule 
and expect to be able to propose a rule in 2017.
    Mr. Green. How long had that advisory panel been impounded 
to get you the information in December?
    Mr. Beauvais. I believe it was over the course of about a 
year or so. The NDWAC or the National Drinking Water Advisory 
Council formed a working group to provide specific advice which 
delivered recommendations to the council in August of last year 
and then the council transmitted those recommendations to the 
administrator in December.
    Mr. Green. Here we are in the middle of April now and you 
have had that information since December. Because of what is 
happening in Flint I think is just a tip of the issue, is there 
any way that EPA could actually speed up the LCR?
    Mr. Beauvais. We certainly have a sense of urgency about 
the revisions and we also want to make sure that we get them 
right. And in fact, many of the recommendations of the National 
Drinking Water Advisory Council were developed at a time before 
Flint had really come to light in the national consciousness. 
So, I think stakeholders' understanding of where we need to go 
on this has evolved somewhat. So, we are working hard on that 
and we are going to get it done as quickly as we can.
    Mr. Green. When do you think it will be? Is there an 
estimated time? Because, again, we are almost 4 months into the 
year.
    Mr. Beauvais. I don't want to prejudge the process. What we 
have been able to say is that we expect to propose in 2017 and 
I certainly hope that that is as early in 2017 as possible.
    Mr. Green. Well, it seems that action levels are not set at 
levels to ensure vulnerable populations are protected. Is that 
a correct statement?
    Mr. Beauvais. I think the specific challenges that occurred 
in Flint have to do with the failure to apply corrosion control 
as should have been done under the existing rule. Nevertheless, 
we do recognize that there is a lot of need for improvement in 
the rule and we are going to be working actively on that.
    In the meantime, we are engaging in very close coordination 
with the States in working to strengthen implementation of the 
current rule and see where States can go beyond the 
requirements of the current rule to improve public health 
protections.
    Mr. Green. How will the LCR revisions ensure health 
protection for children and other vulnerable populations?
    Mr. Beauvais. I am sorry. Could you repeat that?
    Mr. Green. How will the LCR revisions ensure health 
protection for children and other vulnerable populations?
    Mr. Beauvais. Well, I think one starting point is the 
National Drinking Water Advisory Council's recommendation which 
focus on a number of key areas. One of them is to have the 
revised rule require proactive replacement of lead service 
lines by utilities, instead of just as a reactive measure. 
Another proposal is for the agency to develop a household 
action level, which would trigger notifications to public 
health authorities if household levels are over a certain----
    Mr. Green. Well, it seems there is a lot of frustration. 
The fact that exceeding the action level for lead did not 
actually constitute a violation of the Safe Drinking Water Act, 
the LCR requires corrective action when high lead levels are 
found but does not penalize systems for those initial high lead 
levels. In other words, the current LCR fails to incentivize 
protection.
    Do you expect the new LCR revisions to include changes and 
advise systems to prevent lead contamination, not just a remedy 
if it is found?
    Mr. Beauvais. I do.
    Mr. Green. OK. I have a number of series of questions. In 
February of this year, the Ranking Member Pallone and 
Congresswoman DeGette and Ranking Member Tonko sent a letter to 
the Michigan Department of Health and Human Services to better 
understand the role of lead level surveillance in Flint. The 
Department answered some but not all of the questions in 
response dated March 11th of 2016. I want to follow-up with 
some questions.
    Mr. Lyon, it is my understanding you were prepared to 
answer these questions today. Is that correct?
    Mr. Lyon. I will do my best, sir, yes.
    Mr. Green. OK. In your letter, we asked about July 15th 
Michigan Health and Human Services memo that observed a spike 
in blood lead levels in the summer of 2014 after the city 
switched to Flint River in the drinking water. However, the 
Michigan Health and Human Services officials originally 
concluded that this spike was seasonal and not related to the 
water supply. What led the Department to compile the July 15th 
report?
    Mr. Lyon. I received a request from the Executive Officer, 
the Governor's office, sir.
    Mr. Green. Mr. Chairman, I know. I just want--and why did 
Michigan Health and Human Services conclude that the spike was 
not related to the water supply?
    Mr. Lyon. Well I think when that initial analysis is done, 
the staff that work for me felt there were seasonal 
fluctuations within the data that drove the changes over that 
first summer. When they compared it prior years, it was within 
range of years before. And obviously, we learned, once Dr. Mona 
put her information forward, we worked with her on her data and 
were able to later show an association of the blood lead 
increases with the water switch.
    Mr. Green. Mr. Chairman, I know I am well over time. I 
would like to submit additional questions, if possible.
    Mr. Pitts. Thank you
    Mr. Lyon. And through the chair, sir, we will certainly 
look at your questions and provide a narrative response. Thank 
you for the additional time.
    Mr. Pitts. We will make sure his questions are forwarded to 
you in writing, if you can respond.
    The Chair thanks the gentleman and now recognizes the chair 
of the Environment and the Economy Subcommittee, Mr. Shimkus, 5 
minutes for questions.
    Mr. Shimkus. Thank you, Mr. Chairman.
    I want to direct mine to Mr. Creagh. Can you speak to 
schools, day cares, and senior centers in Flint? We have mostly 
been talking about homes.
    Mr. Creagh. So, yes, sir, we can. And so we have actually 
tested all the schools in Flint and we have replaced 93 percent 
of the fixtures. And one of the questions had to do with lead 
exposures in schools in Flint, Michigan. There are no lead 
service lines going to the schools, to the best of our 
knowledge. It is other types of materials. So, mainly, the 
exposure happened because of the fixtures within those schools. 
So, we have replaced 93 percent of those. We have gone through 
a number of deep flushings, if you will, for those schools, to 
assure that when kids come back, hopefully after spring break, 
they can once again use that water in those facilities.
    We are not there yet. As we replaced some of the fixtures, 
we found out that there was some plumbing within the schools 
that needed to have some further renovations and so we are 
working very closely with the school superintendent.
    Mr. Shimkus. Daycares, senior citizens?
    Mr. Creagh. Yes, sir, those are certainly on the list and 
we are doing those. I can't tell you exactly what percentage. I 
think we are about at 46 percent of those.
    Mr. Shimkus. So you talked in your opening statement some 
inconsistencies in the testings across the whole area. And then 
you have also talked about the sentinel program a little bit.
    So, what measures--I mean how are you going to get to a 
determination when you can make a statement of the water is 
safe again, since there seems to be hot spots and--I mean can 
you talk through that? I mean, I don't know the answer. I am 
asking you.
    Mr. Creagh. Well, the data will drive our decisions. And I 
appreciate EPA regional administrator Bob Kaplan brought 
together a number of the scientists a week ago Monday to look 
at the data. And the thing that we cannot do is have different 
interpretation of data. We need to be closely aligned because 
we have promised citizens certain actions, without necessarily 
having that data support those decisions. So, I think what you 
will see is all of us look at the data.
    And the data at this point in time says a couple of things. 
It says that soluble lead is getting better. In other words, 
there is coating in the piping. The particulate lead that gets 
caught in the aerator is problematic. And that is why it is 
unstable. The data says that the filters work and the data say 
that we need to enlist the help of the citizens of Flint to 
flush their systems thoroughly so that the orthophosphates will 
continue to coat those pipes.
    Mr. Shimkus. Can you talk about water bill credits for 
Flint?
    Mr. Creagh. Yes, sir. No one should pay for unusable water. 
And so there is a $30 million credit that is available to 
refund or credit towards the water use between April of 2014 to 
2016. About 52 percent of the bill was for drinking, bathing, 
and cooking. And so, because of the flushing and other things, 
the residents are afforded 65 percent.
    We are working with the city. They are trying to perfect 
the refund and credit mechanism. So, at this point in time, 
that is in the city's court.
    Mr. Shimkus. So, there is a plan but there is a 
recognizable delay?
    Mr. Creagh. Yes, sir. As the city was going through the 
records, they wanted to make sure they had clarity, 
transparency, and that they could answer the questions as the 
citizens raised them.
    Mr. Shimkus. Let's talk about the communication between the 
Michigan Department of Environmental Quality and the rest of 
the local, State, and Federal. What have we done--I think from 
the outside, because I am from Illinois, we are watching this 
unfold. Obviously, there is a crisis but the question is how 
have we improved communication so that we are all moving 
towards the same objective versus pointing fingers at each 
other?
    Mr. Creagh. As Dr. Lurie said, one of the ways to improve 
communication was through the unified command group and I 
appreciate her leadership in that, so that there was not a 
difference between State, Federal, and local government. That 
is number one. Number two, Director Lyon and I have a 
memorandum of understanding or agreement to make sure we share 
data across program areas. Number three, we need to be in the 
community, so we meet in the community every Friday through the 
Flint Water Interagency Coordinating Committee that I referred 
to that has both the internal and external expertise so we can 
honestly debate the data.
    And then three is we need to embrace those that raised 
questions and not dismiss.
    Mr. Shimkus. Thank you. Mr. Chairman, I know a lot of 
people want to ask questions. I will yield back my time.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the ranking member Mr. Tonko, 5 minutes for 
questions.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Beauvais, the most recent EPA Drinking Water Needs 
Assessment has estimated that we need $384 billion over the 
next 20 years to bring drinking water systems into good working 
condition. The estimated investments needed for those systems 
has grown with each succeeding assessment, indicating that we 
are falling further and further behind. I agree with your 
statement that need a serious discussion about how to deal with 
this national problem. I further believe the funding level for 
the Drinking Water State Revolving Fund is simply too low to 
offer States the assistance that they truly need to tackle this 
problem.
    This committee has received testimony and support of my 
belief from representatives of different States and systems 
both small and large. So, I would ask what is your assessment 
of the States and additional Federal funds to reduce the 
maintenance backlog with their drinking waters. What do you 
believe needs to be done?
    Mr. Beauvais. Well, I think it is clear that we do need 
increased investment in drinking water infrastructure, as well 
as on the clean water infrastructure side and the need surveys 
point to those needs. We are working hard within the levels of 
resources that we have within the State Revolving Funds. We are 
working closely with States to try to find ways to make that 
money work smarter and harder through leveraging and so forth. 
There is also the opportunity through the Water Infrastructure 
Finance and Innovation Act. In the President's budget for 
fiscal year 2017 there is a $20 million request, which could 
help to leverage additional resources for low-interest loans 
that could help compliment the SRS. So, those are some of the 
areas in which we are working but strongly agree with you that 
there is a need for more resources and work in this area.
    Mr. Tonko. Thank you. And it is obvious that this response 
in Flint is reactive. It is obviously more expensive than a 
proactive program that would prevent emergencies. Do you agree 
in that assessment?
    Mr. Beauvais. I think there is a common sense response 
there of concern with penny wise but pound foolish policy 
decisions which might save a few dollars in the short-term but, 
ultimately, have led to some very serious expenses and, most 
importantly, the human tragedy that is unfolding in Flint.
    Mr. Tonko. Thank you. And in the case of Flint, I 
understand there are estimates that up to 40 percent of their 
treated water may be leaking from the distribution system. That 
is not only a profound waste of a vital resource, it is 
economically unsustainable. A water utility cannot collect 
payment on that water but I assume they have to charge a rate 
necessary to cover those losses. That problem must be addressed 
if Flint's water utility is ever to be able to get costs and 
rates under control.
    What is the estimated investment needed to bring Flint's 
drinking water infrastructure up to par?
    Mr. Beauvais. I don't have precise numbers on what it would 
take to repair the water mains and so forth but that certainly 
would be an expense well beyond what is involved in possible 
replacement of the lead service lines.
    Mr. Tonko. Yes, I am hearing some very high estimates and 
when I compare that to what is allocated in our SRF, it could 
take up that whole system. Is that your understanding?
    Mr. Beauvais. I don't have precise figures but that 
wouldn't surprise me.
    Mr. Tonko. And am I correct in understanding that the focus 
now is on the lead service lines in Flint's distribution 
system?
    Mr. Beauvais. Well, the city has been very focused on 
replacing the lead service lines. I believe that Director 
Creagh made mention of the FAST Start program that the city is 
engaged in and the city has been in dialogue with the State 
about potential funding for full lead service line replacements 
across the city.
    Mr. Tonko. And Director Creagh, your testimony states that 
results from recent sampling have shown that over 92 percent of 
the households have lead levels less than 15 parts per billion. 
That is not good enough. But even if water is reliably safe to 
drink, what steps do you believe are necessary to rebuild trust 
in Government, in their Government, and in our water system?
    Mr. Creagh. As I mentioned, one of the roles of the Flint 
Water Interagency Coordinating Committee is to make sure we are 
in the communities working with the community to build that 
trust, one. Two is that you have to have outside experts and 
those that are trusted in the community part of the solution, 
like Dr. Mona Hanna-Attisha, like Dr. Mark Edwards, Dr. 
Reynolds, and Dr. Sullivan. So, we try to do that. And then 
three is we need to perform and deliver.
    And so, we are working with the city on reliability 
studies. We are looking at what is the infrastructure needs for 
the next decade, not the last decade.
    Mr. Tonko. I know there has been a big discussion about 
affordability for programs that speak to drinking water. But I 
hear a lot of avoided costs that, regrettably, are part of the 
system because of austere thinking.
    Can you provide an update on the lead service line 
replacement pilot program? Is there a reliable inventory of 
lead pipes in Flint?
    Mr. Creagh. Yes, sir, those are two different questions. 
The pilot program that Retired General--Brigadier General Mike 
McDaniel did on behalf of the city. By the end of this week, 
they should have 33 lines out as proof of concept. Those were 
more than lead service lines because galvanized lines act as a 
sink for lead and that is part of the reason for the 
particulate lead. So, that is a proof of concept that he is 
doing and that should be complete.
    There is then, as I mentioned, $2 million to begin taking 
out additional lead service lines. They are using the program 
that the Board of Water and Light in Lansing, Michigan used 
when they replaced their lead service lines.
    Mr. Tonko. And I thank you, Director Creagh. I have taken 
up my available time but there are many questions I have and I 
will submit those to the subcommittees for review for the 
individuals.
    Mr. Pitts. We will send them to you in writing.
    Mr. Tonko. With that, I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the chairman of the full committee, Mr. 
Upton, 5 minutes for questions.
    Mr. Upton. Thank you, again, Mr. Chairman. We all have a 
good number of questions.
    The first one that I have, I guess in listening to the 
response of Mr. Beauvais to Mr. Green's question, if there was 
one message you could send up the chain is we would like to 
have something maybe earlier than 2017. That is a long ways 
off. And I would like to think that maybe there can be a little 
extra push to try and get that so communities can figure out 
where they need to go. So, whether it is a proposed rule or 
something that can be out there that can help, I think that 
would be important.
    The question that I have I guess for each of you, quickly, 
is so we passed, as I indicated in my opening statement, H.R. 
4470 pretty darn quick. I mean Mr. Kildee had some good ideas. 
We refined them a little bit. We had, I thought, some 
constructive ideas. We have worked with Mr. Pallone and the 
committee staff, who is bipartisan. We didn't have the 
hearings. We didn't have a markup. We moved it right to the 
floor. And I thank again the leadership on both sides. We 
passed it under suspension like that. And of course, we are 
waiting for the Senate to take some action.
    It has now been about 2 months since that happened. So, now 
if you had had this extra 2 months, again, we did this pretty 
quick, what changes would you make? What things have you 
discovered that we might have missed when we moved that bill so 
quickly out of here that we might want to think about, 
anything?
    Mr. Beauvais. Well, the agency is certainly very grateful 
for your and the committee's work on providing additional 
authority for prompt public notice for systems where there are 
lead action level exceedances. I don't have specific 
suggestions to offer at this moment but we would be more than 
happy to provide technical assistance.
    Mr. Upton. That would be great. Because, again, it has 
languished over in the Senate and, at some point, we are going 
to, I hope, come together.
    Dr. Lurie, I just want to say, too, for the record, you and 
I have met a number of times. We have had a number of 
conversations. We really appreciate what you have done. The 
directive that you had from the President, your weekly trips 
that are there, you are working with all layers of Government. 
We appreciate your testimony today and what you are trying to 
do, your expertise.
    But I would be interested in if you have any thoughts in 
terms of what we might have added, knowing that we have been a 
couple months since we passed this in the house.
    Dr. Lurie. You know I think it is a great question. And my 
first observation, overall, is that public health and water are 
obviously tied very closely together. A clear message from this 
is the disinvestment in the public health infrastructure has 
consequences. And a clear message I think going forward is the 
importance of preventing exposure by a strong early warning 
surveillance system to detect elevated blood levels, stronger 
surveillance efforts, and faster action on the lead mitigation 
issues.
    Here, moving forward with the registry to track all kids, 
finding kids who might be having trouble and being able to jump 
on them quickly is going to be terribly important.
    Mr. Upton. So, here is a follow-up question as I watch the 
clock. How many--what percentage of kids in Flint, knowing that 
this is a national story, folks in Flint know about it, how 
many families, how many kids have not been tested in Flint by a 
percentage?
    Dr. Lurie. You know at the beginning of this crisis----
    Mr. Upton. Because I mean----
    Dr. Lurie [continuing]. And I asked Mr. Lyon to help, about 
60 percent of kids on Medicaid had been tested, although there 
is a universal screening recommendation. With the more recent 
testing, most of the lead was probably out of kids' systems but 
it was very important for us to find any remaining kids who 
still had high lead levels. Moving forward, testing all kids 
per the universal screening recommendations and getting on 
those high lead levels within 2 weeks is going to be critical.
    Mr. Upton. Mr. Lyon?
    Mr. Lyon. She is exactly right. We were approximately 60 
percent in our Medicaid program. We instituted some enhanced 
elevated blood level testing, especially after October first, 
when this occurred. We have tested thousands of children. What 
we have seen is the rate is somewhere below two percent, so we 
are following up with those children but, as has been 
indicated----
    Mr. Upton. Two percent with higher elevated--with elevated 
lead levels.
    Mr. Lyon. Five.
    Mr. Upton. Five percent, OK.
    Mr. Lyon. With that in mind, it doesn't measure past 
exposure. So, what we have done is we have really taken our 
focus and said that we need to have the services in place that 
could potentially serve any child in Flint because we don't 
know what their exposure may have been prior to the recent 
blood testing.
    Mr. Upton. OK. My time has expired but will prepare similar 
questions for the written record and yield back. Thank you.
    Mr. Pitts. The Chair thanks the gentleman.
    I know recognize the ranking member of the full committee, 
Mr. Pallone, 5 minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask some 
questions of the panel and I will be a little more specific but 
my major concern, what I hear from our Michigan colleagues is 
that we need to address the infrastructure issue because the 
fact of the matter is that we still have exposure to these lead 
pipes and short-term and long-term we need to correct that by 
having systems in place that would allow people to drink the 
water without having to worry about lead. And secondly, we have 
all these people, particularly children, who have been exposed 
to lead poisoning and something needs to be done to treat them, 
not only now but also in the future.
    Now, I understand that the Governor convened an independent 
group, the Flint Water Advisory Task Force, to review what 
happened in Flint and offer recommendations for the future and 
that this task force offered a number of recommendations, both 
short- and long-term, particularly establishing and maintaining 
a Flint Toxic Exposure Registry to include all the adults and 
children and further recommended that all children be offered 
timely access to age appropriate screening, clinical, and 
follow-up for development and behavioral concerns.
    So, thinking about what this task force is trying to do to 
implement these recommendations, I assume they would try to do 
that, what about the funding? In other words, do you have 
adequate funding to correct the infrastructure both now and in 
the future so that this doesn't happen again in Flint and to 
address the health concerns that will rise with these adults 
but particularly children who have been exposed? That is what I 
wanted to know. I want to know because we are the committee of 
jurisdiction. We are not appropriators but you know obviously 
we can influence this.
    I guess I would ask--let me be more specific. Let me start 
with Mr. Lyon. Do you agree that--do you think that the current 
State and Federal budget is adequate to address the public 
health activities that I mentioned?
    Mr. Lyon. I think with this issue especially the 
investments in lead programs nationally has decreased. And I 
think that has happened at State levels and Federal levels. And 
I think that is something--that is a priority that should be 
revisited. We have reviewed the science and we see the studies 
around lead exposure and how it impacts children in the near-
term, behavioral issues, ADHD, in the long-term potential links 
with interventions with the juvenile justice system----
    Mr. Pallone. Well, let me ask you this, Mr. Lyon. Do you 
feel right now you have adequate funding at the State and the 
Federal level to address this in Flint, to address both the 
infrastructure needs and the public health concerns?
    Mr. Lyon. I would have to defer to Keith on the 
infrastructure needs. What I will tell you is that through the 
Medicaid waiver process and through our partnership with the 
Federal agencies and with the Governor's commitment to 
providing State funding as well, we are reviewing that. We have 
dedicated more than $200 million with State funds. and the 
Governor is committed to maintaining the fundings to provide 
these services in the future.
    I also want to, again, thank my Federal partners. CDC has 
been on the ground helping us with many of these 
investigations. Dr. Lurie has been there. Dr. DeSalvo is 
somebody who has been very close to the ground as well to 
assist our staff there. That has been very important.
    But if you are asking long-term what we are doing with some 
of these things, there is always going to be competing public 
health priorities.
    Mr. Pallone. Well, let me go to Dr. Lurie. So, you are of 
the opinion, if I understand it, that you have adequate State 
and Federal funds, at this point, to proceed.
    Mr. Lyon. For the near-term for what we are looking for.
    Mr. Pallone. All right.
    Mr. Lyon. But I think we are going to revisit.
    Mr. Pallone. All right, Dr. Lurie, we understand that one 
of the things that Flint teaches us about the consequences of 
budget cuts for public health activities, in other words, a lot 
of this arose because of budget cuts. So, you know what do 
you--do you want to comment on the same question? Should we be 
concerned that we have inadequate funding to deal with Flint 
now and in the future, so that we don't have recurrence of 
Flint problems?
    Dr. Lurie. Well, I very much appreciate the question. And 
as I said, you know disinvestment in the public health 
infrastructure has dire consequences. Maybe not always year 
one, but it is going to come back and bite you, without a 
doubt.
    Specific to lead and specific to Flint, I think that this 
Flint situation has shown us that lead in the water is another 
really important source of lead and the infrastructure issues 
make us all need to pay much more attention to lead. So, I 
think as Mr. Lyon said, it is important to revisit at this 
point support for the lead programs, particularly with the 
scope of the CDC.
    Mr. Pallone. No, I am asking whether or not you think we 
have adequate funding for these programs.
    Dr. Lurie. Right now, I think the program certainly could 
be strengthened. In addition, I think we are really looking at 
wanting to put this registry in place in Flint so that we can 
both monitor kids and learn from the long-run. CDC estimates 
that establishing and maintaining a registry could cost as much 
as $4 million a year or more.
    Mr. Pallone. So, you think you need additional funds to the 
tune of $4 million a year?
    Dr. Lurie. I think that is their estimation for the cost of 
the registry. Obviously, the Medicaid expansion, the other 
things are providing additional resources for the direct care 
of kids in Flint and I would defer to Mr. Lyon for more 
comprehensive assessment of the health and public health needs 
for Michigan and for Flint, per se.
    Mr. Pallone. Thank you.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the vice chair, Mr. Guthrie, 5 minutes for 
questions.
    Mr. Guthrie. Thank you. Thank you, Mr. Chairman.
    Mr. Creagh, first I want to ask you--it is three questions. 
I will ask it as one question and then get your answer.
    So, what is the status of drinking water in Flint today, 
particularly in lead concentrations? Is it continuing to 
improve? And when will it be drinkable, without all the caveats 
and boiling and everything?
    So, what is the status? Is it improving? And when will it 
be drinkable?
    Mr. Creagh. So, the data tells you that the quality is 
improving. The data tells you it is not yet safe because of the 
particulate lead. And until we go through a comprehensive data 
analysis in looking at where the lead particles are, there is 
not a date certain.
    Mr. Guthrie. I mean is there a rough estimate or time?
    Mr. Creagh. At this point in time, there is not a rough 
estimate until the system is thoroughly flushed. And that is 
where we will need to have the assistance of Flint citizens to 
get that accomplished.
    Mr. Guthrie. Thanks. Mr. Lyon, I would like to--we are 
talking about spending in public health. And on one of the 
things I think we should have been spending more on public 
health infrastructure as well, particularly infrastructure such 
as this. States are spending an enormous amount of money. I 
know my State of Kentucky and Medicaid, the growth of Medicaid 
is crowding out all the other. So, we are looking to reform 
that program to make it more efficient and more affordable so 
that we can spend money on things that matter in public health 
and other aspects. So, I have been focusing on Medicaid.
    So, in your written statement, you indicated that Michigan 
emphasized the need to improve lead testing rates in your 
recent Medicaid Managed Care Contract. Can you describe what 
Michigan is doing to improve the rate of lead testing, not only 
in Flint but in the entire State?
     Mr. Lyon. Yes, sir. So, we have emphasized blood lead 
testing for several years within our Medicaid program but, as 
we looked at many of our public health issues and tried to roll 
those items up into our Medicaid rebid, we are trying to get a 
more comprehensive look at all things that drive health. So, 
what we are able to do with our rebid is build incentives in 
for the health plans, where if they reach certain metrics or 
certain measurements, then they actually can work their way 
into an incentive pool or a bonus pool. So, that is what we do.
    So, we are a strong managed care contract state for 
Medicaid. We believe that that is the effective way to go. We 
have great health plan partners. So, that is who we utilize in 
trying to do this and they then have relationships with 
physicians.
    What we need to do is circle back to ensure that we are 
measuring how those health plans are doing with their 
customers. What I would emphasize, public health is for the 
entire population. So, when you are looking at population-based 
activities, that is broader than the Medicaid program.
    Mr. Guthrie. Yes and understand my previous comments, I 
understand that public health is broader than Medicaid. But a 
lot of states are just increasingly spending more and more 
money on Medicaid, which diverts money from broader public 
health initiatives. There is only X amount of dollars. States 
can't print money.
    So my next question was what type of outreach is the state 
or Medicaid health plans doing to encourage families? So, I 
guess you answered that in that you are just giving them target 
numbers that they have to reach and it is really up to the 
state Medicaid plans to make these targets work. Is the state 
doing other kinds of outreach and advertisement and trying to 
get families to have their children tested?
    Mr. Lyon. Yes, sir. I am sorry. Thank you for the question. 
We have surveillance programs in place, centrally, and we also 
have some of the money that Dr. Lurie and some of the members 
we are talking about. We target towards our high-risk areas. 
So, there are targeted areas that we really focus on and that 
is also part of what we are looking at.
    Mr. Guthrie. All right, thank you. That concludes my 
questions and I yield back.
    Mr. Pitts. The chairman thanks the gentleman.
    I know recognize the gentlelady, Mrs. Capps, 5 minutes for 
questions.
    Mrs. Capps. Thank you, Mr. Chairman and to all of our 
witnesses for your testimony here today.
    Clearly, what has happened in Flint is a tragedy of 
incredible proportions. While there are many topics I would 
like to touch on as a school nurse, I can't help but 
continually go back in my mind to focus on the impact of lead 
on the children of Flint and, frankly, in far too many 
communities around our country. This is a lesson for us all.
    I know too well that these environmental and health impacts 
are going to have ripple effects in every aspect of every 
child's life affected by it.
    As you know, the CDC's Childhood Lead Poisoning Prevention 
Program was created to address such issues by funding State 
health departments to screen for children for lead poisoning. 
Unfortunately, Congress nearly zeroed out funding for this 
Federal program from 2012 to 2013 and has only partially 
restored it recently to 50 percent of its original levels. 
These breakdowns, compounded by cuts at the State level, deeply 
affect our Nation's ability to identify and alert communities 
of high lead levels. As has been said, we are now reaping the 
results of this neglect at every level of our life together, 
especially in our case at the Federal level, something that is 
not only morally wrong but that will result in tremendous long-
term effects in our country, not to mention cost.
    For these children and families, the impact of this crisis 
will be life-long and it would only add insult to injury if we 
add insult to injury if we stay on the sidelines and refuse to 
learn from this tragedy or deem it too hard or too expensive to 
act. We must think critically about the ways we can learn, now 
that it has happened, what went wrong so that our systems can 
be stronger in the future.
    So, my first question, Mr. Lyon and Mr. Creagh, you have 
talked about this already, what you are doing to strengthen 
Michigan's blood lead level monitoring programs. But what are 
the lessons you wish we would learn here and considerations we 
should take into account how we learn from you and how we can 
create or strengthen a national program?
    Mr. Lyon. Well, specifically with lead, I believe that 
stronger surveillance is necessary, period. We are more active 
in surveillance than other areas of infectious diseases and I 
don't know if this was a Michigan-specific problem but one of 
the things we have done in reaction to this is really ensure 
that our CLPPP program is more aligned with our 
epidemiologists. That was part of the restructuring that we did 
and it was critical to correct what we were doing.
    I think another sort of overarching piece, and maybe this 
will segue into what Director Creagh will say, is that we have 
to be cognizant of health in all policies that we create. We 
talk about health in all policies. This is a great example of 
when a switch was occurring or something significant was 
occurring where we really are considering health. And we talked 
about that generally in communities where there is health 
disparities but this is something that we need to be cognizant 
of going forward and I think should inform both State and 
Federal policymakers.
    Mr. Creagh. And if I may, one of the things that we need to 
have is a very targeted and focused program relative to 
schools. As we went through the schools looking at what the 
infrastructure was, it had little to do with lead service 
lines. It had to do with fixtures in schools----
    Mrs. Capps. Crumbling schools.
    Mr. Creagh. Yes, and so that is one. And then two, as 
Director Lyon said, there needs to be a direct and robust 
intersect between the environmental programs and the public 
health programs because you cannot run those as siloed programs 
and we are committed to do that.
    Mrs. Capps. Well, thank you. You are pointing out some very 
critical issues.
    You know Flint is a frightening example of the dangers 
associated with not investing in public health infrastructure 
and programming across the country. But it is indicative also 
of a much larger program. The CDC and the scientific community 
have established that no amount of lead in the blood is safe 
for our children. It is estimated that millions of children 
across our country, not just in Flint, are exposed to lead 
through paint in their homes, through lead pipes, and plumbing, 
and a variety of other ways, particularly in older homes and 
older structures and many older schools.
    Dr. Lurie, I would like to turn to you. Is the agency--and 
I just have a second to get it out if you could respond. Is the 
agency considering any changes to the Childhood Lead Poisoning 
Prevention Program? How can we improve surveillance mechanisms 
so we can identify in real-time other communities?
    Dr. Lurie. Thank you. I appreciate the question.
    Yes, indeed, the agency is looking very closely at how to 
strengthen surveillance efforts to better detect these kinds of 
issues in the future and Flint has clearly highlighted the 
importance of preventing exposure, having a strong early 
warning system and being able to act on that as well.
    In addition to revising the guidelines for the program 
going forward, we are also looking at novel approaches such as 
new ways to use health information technology to help with 
these efforts in the future so that we truly have an early 
warning system and connect on the signals.
    Mrs. Capps. I yield back and I hope we can act further on 
this topic.
    Mr. Pitts. The chairman thanks the gentlelady.
    I now recognize the gentleman from Pennsylvania, Dr. 
Murphy, 5 minutes for questions.
    Mr. Murphy. Thank you very much. I want to pick up on some 
of the questions that my colleague from California brought up.
    Dr. Lurie, with regard to these lead levels, as a 
psychologist, I have worked a lot with developmental testing of 
young children, but with these lead levels that you have 
evaluated and tested, what can you expect of the developmental 
outcome of these lead levels that have been present?
    Dr. Lurie. I think that is a really important question and 
something we focused a lot of our efforts on. What we know is, 
particularly for very young children, that no lead is good for 
you but we also know that if you do things to stimulate the 
brain and focus on early learning, such as early childhood 
education, good nutrition, parents reading to their kids, and 
frequent ongoing behavioral and development assessments so that 
when kids fall off, they can be--they can catch up.
    Mr. Murphy. I understand that part of that. I am just 
asking about the chemical aspect of this level. Again, no lead/
copper is good, but what I am referencing is so this is a 
situation where it sounds like there was poor corrosion 
control. And water companies are supposed to look for this. 
Right? Are they supposed to review the corrosive levels of 
water that they are putting into the water system? Is that a 
standard? Does anybody know that, EPA?
    Dr. Lurie. I will ask my EPA colleague to address that.
    Mr. Murphy. Yes.
    Mr. Beauvais. Yes, systems are supposed to both to be 
applying corrosion control treatment and to be monitoring water 
quality parameters.
    Mr. Murphy. And in Flint, they weren't doing that.
    Mr. Beauvais. That is right. In 2014, when the Flint water 
system switched from previously purchasing Detroit water, which 
was treated in Detroit and corrosion controlled----
    Mr. Murphy. Well someone was violating this. Whether it was 
the EPA wasn't testing or the community wasn't testing, someone 
wasn't following what they should have done.
    Mr. Beauvais. The system did not apply corrosion control 
after they switched to river water.
    Mr. Murphy. Right, somebody didn't do what they were 
supposed to do. I mean clearly know that.
    Is Flint, Michigan the only water system in the country 
that has a problem like this?
    Mr. Beauvais. I think it is fair to say that Flint's 
problems are quite unique and unusual in the notion of a large 
system like this changing to an untreated water source and 
failing to provide corrosion control is highly unusual. That 
being said, it is clear that there are challenges with lead 
service lines and lead levels in many systems across the 
country.
    Mr. Murphy. So, and testing lead levels in people's homes 
is something that people are allowed to have, they are allowed 
to request that, correct? And here it happened that somebody 
did begin to test this out and that became what set this off 
and we are thankful that happened. But across America, I would 
suspect from what you are saying that a lot of communities 
aren't routinely testing their lead levels in water. Dr. Lurie, 
do you know if that is occurring? I will take anybody's.
    Dr. Lurie. You can speak to the lead levels in water. I can 
speak to the lead levels in blood.
    Mr. Beauvais. OK, in whatever order is preferable. Yes, I 
mean for those systems that are subject to the Lead and Copper 
Rule, they are required to monitor for lead levels in water 
through tap sampling and----
    Mr. Murphy. Right but they didn't. They didn't. And Dr. 
Lurie?
    Dr. Lurie. Yes, and, as many people know I think, that 
Medicaid program, in general, has a set of screening 
requirements precisely for this reason, that there is a 
recommendation that all 1- and 2-year-olds be tested. And then 
there is a recommendation that children 3 and up be tested if 
they haven't been tested previously, precisely to detect these 
issues.
    Mr. Murphy. Right and I agree. I have seen many a child 
over the years, and I know how important this is. And in my 
role as chairman of Oversight and Investigations, we had 
company after company in front of us: General Motors, 
Volkswagen, health companies, FDA, people who didn't do what 
they were supposed to do. Congress puts up these laws, we have 
regulations. It doesn't happen. And then companies say, ``Can 
you bail us out?''
    Now, I am very concerned about the people of Flint and we 
need to find a solution for them but I am also concerned about 
the levels across the country. Locally, my elected officials in 
Allegheny County, Pennsylvania, are still struggling with what 
the EPA put upon years and years and years ago with a consent 
decree. Well, the constituents in my area and in Mike Doyle's 
area, who is also a member of this committee, have been told 
years ago because the pipes that were originally set up that 
the sanitary sewers and the storm overflow go into the same 
pipes. You have to replace all the pipes in the county and the 
City of Pittsburgh, eventually. It is costing these communities 
billions and billions and billions of dollars. And basically, 
it said you have got to do this; EPA says you have got to do 
it, you have got to do it.
    So the question then becomes here is is this something that 
Flint, Michigan should bear the cost of all these actions or 
should the Federal Government help them out.
    Mr. Beauvais. Well, I think if you are speaking with regard 
to the infrastructure changes that need to happen and are 
planned in Flint, it really is, primarily, a State and local 
responsibility. The assistance that the Federal Government 
provides, the primary assistance that is available so far is 
through the State revolving funds, which is one available 
resource, that the State has to fund possible infrastructure 
improvements. There are, of course, ongoing discussions, I 
believe, both in Michigan and here in the U.S. Congress, 
regarding potential other funding mechanisms.
    Mr. Murphy. Thank you.
    I recognize I am out of time. Thank you very much, Mr. 
Chairman.
    Mr. Pitts. The chairman thanks the gentleman and now 
recognizes the gentlelady from Florida, Ms. Castor for 5 
minutes.
    Ms. Castor. Thank you, Mr. Chairman, and thank you to the 
panel for being here today. I also want to thank the committee 
for calling this hearing because the Energy and Commerce 
Committee has jurisdiction over the Safe Drinking Water Act, 
health matters, environmental matters and here it is April 2016 
and many people were wondering where the Energy and Commerce 
Committee was. So, I am glad we finally have this hearing.
    Mr. Lyon, following the April 2014 change of the Flint 
water source, then, in 2015 where families and medical 
professionals like Dr. Hanna-Attisha, who is on the next panel, 
started to say there is lead in the water. People have to stop 
drinking it. There needs to be a coordinated response. At some 
point after that, Michigan asked for a Medicaid waiver for 
health services for Flint children and pregnant women. When did 
you come together to apply for the Medicaid waiver?
    Mr. Lyon. Actually, I think we submitted our formal 
application in February, mid-February, approximately.
    Ms. Castor. This February.
    Mr. Lyon. Yes.
    Ms. Castor. And it was, you had been in discussion for a 
little while on that?
    Mr. Lyon. Yes, we were discussing the potential with----
    Ms. Castor. And it was granted?
    Mr. Lyon. Quickly. I don't know the exact date but it was--
yes.
    Ms. Castor. OK, in February?
    Mr. Lyon. We applied in February. I am not sure when it was 
actually approved.
    Ms. Castor. OK.
    Mr. Lyon. But CMS did approve it very quickly.
    Ms. Castor. And this Medicaid waiver is a technical term. 
And what it really did is say we need help. We need to make 
sure that the citizens of Flint in the area, children and 
pregnant women get the health services that they need. Can you 
sketch that out a little bit more why you thought that was an 
important part of the response?
    Mr. Lyon. Yes, I think we wanted to extend benefits to 
children and pregnant women in Flint because they are most at 
risk for the impacts of lead exposure.
    Ms. Castor. And in fact, low-income communities often are 
more at risk for lead exposure.
    Mr. Lyon. I am sorry. What was that?
    Ms. Castor. Oftentimes low-income communities are more at 
risk for lead exposure.
    Mr. Lyon. Certainly, that is one of the health disparities 
that we look at through our programs is that where there are 
older homes and more lead-based paint in more impoverished 
areas, that definitely does have an impact on our urban cores, 
yes.
    Ms. Castor. So, as part of that Medicaid waiver, does the 
State receive additional dollars to serve a larger population?
    Mr. Lyon. Yes.
    Ms. Castor. How much?
    Mr. Lyon. I think it is approximately $25 million, total, 
State and Federal.
    Ms. Castor. And is there a time line on the waiver and 
expanded population, treating the expanding population?
    Mr. Lyon. The Center for Medicare & Medicaid Services has 
approved the waiver. We are working with our State legislature 
to get their approval to move forward and those conversations 
are ongoing. And I hope and anticipate that they will act 
quickly so that we can get this up as quickly as possible.
    Ms. Castor. So the Medicaid waiver has been granted by the 
Federal Center for Medicare & Medicaid Services but the State 
legislature has not put up its share because it is a State-
Federal partnership. Is that----
    Mr. Lyon. That is basically correct. What I would say is we 
have to have the authorization and the funding to do this. And 
we go through a budget process every single year, and that 
takes some time.
    So, I think there was a bit of an inkling that this could 
be done as a regular part of the budget and we have asked that 
they take a quicker look at this.
    Ms. Castor. So, realistically, when do you think the 
legislature will act and do you think they will act?
    Mr. Lyon. I think we will hear quickly. I mean we have been 
having conversations at very high levels with leadership and I 
have been over discussing with them and they understand the 
importance of doing it.
    Ms. Castor. OK, so within the next few months you 
anticipate?
    Mr. Lyon. Oh, yes, yes, yes.
    Ms. Castor. OK. So, Michigan has a Medicaid Managed Care 
System. Is that right? You rely upon private plans to provide 
the health services and contract with medical professionals.
    Mr. Lyon. The end of that cut out. I am sorry.
    Ms. Castor. To contract with medical professionals for the 
actual health services?
    Mr. Lyon. Yes.
    Ms. Castor. So how do you ensure that children and pregnant 
women are actually being tested? And I think this kind of goes 
to the point of there seems to be a consensus that Flint is 
going to need a registry. But how do you ensure that the 
residents, the children and pregnant women get the health 
services they need? Are the Medicaid Managed Care companies 
required to collect data? And what else will you need going 
forward?
    Mr. Lyon. Yes, they are required to collect data. We will 
work very closely within the populations they serve. We do 
outreach with the Medicaid health plans. They do outreach to 
reach out to individuals. It is a capitated model, so they are 
interested in increasing their participation so they have an 
incentive to enroll people. And what I would tell you is it is 
so important because we have to have people identified in the 
system so that these early interventions can occur.
    Dr. Lurie talked quite a bit about education, nutrition is 
very important, both to stop the absorption but also to ensure 
that a child develops the proper way that they can fight off 
any potential factors that happen. And the next part of that is 
having the screening in place so that if something is 
indicated, we can get them the services they need.
    And the most important part of this to me is the link to 
the medical home or the primary care physician in ensuring that 
these children and pregnant women are being seen regularly by 
their providers. And this allows that access to occur.
    Ms. Castor. So, in the Medicaid waiver that was granted to 
Michigan that we are waiting on the legislature to act on, does 
it contain specific conditions that require the managed care 
plans to do that screening and testing and data collection?
    Mr. Lyon. Yes. As Dr. Lurie mentioned, she mentioned the 
Federal standards and she could read that right out of our 
Medicaid manual. Ages 1 and 2, and if they haven't been tested, 
ages 3 and higher.
    Ms. Castor. And Michigan's intent is to ensure that the 
children and pregnant women that get their health services 
through Medicaid are entered into a registry and are tracked 
over time?
    Mr. Lyon. We are going to track them. That is something 
that anything that we do long-term will have to be well thought 
out because we haven't done it before. So, we would work with 
CDC on that. That would be very important.
    The other thing I would note in this situation, too, we 
have encouraged our health plans to test even younger than 1 
because we test at 1 and 2 because that is when children begin 
to be mobile and that is when they start interacting with 
potential----
    Ms. Castor. So but the overall infrastructure on data 
collection and registry is not in place now and that is 
something you are building right now.
    Mr. Lyon. We collect data from the health plans but if we 
are looking to do a really robust, all-encompassing tracking 
system of these children long-term, I think it is something 
that we are going to have to work with the CDC and CMS and the 
local hospitals and the local providers to really get that in 
place, the local behavioral health system as well.
    Ms. Castor. Thank you very much.
    Mr. Lyon. Yes.
    Mr. Pitts. The chairman thanks the gentlelady.
    I now recognize Dr. Burgess, 5 minutes for questions.
    Mr. Burgess. Thank you, Mr. Chairman, and thanks for having 
the hearing today. Thank you all for being here with us this 
morning and spending so much time with us.
    I just have a couple of questions and possibly they could 
go fairly quickly. But Mr. Beauvais, let me start with you.
    The Lead and Copper Rule, I didn't want to oversimplify it 
but to me, as a relative lay person here, it seems like Lead 
and Copper Rule, is the purpose of that to sort of let people 
know that the water supply is OK from these two agents, lead 
and copper? Does it function as an early warning system or does 
it function or could it function as providing a source of 
comfort to people who are relying on the municipal water that 
at least Lead and Copper Rule is being complied with, so we 
know we are OK?
    Mr. Beauvais. It needs to, you know the way that Congress 
wrote the Safe Drinking Water Act it required to set standards 
and treatment techniques, in this case, that are feasible.
    Mr. Burgess. But how does it exist today? I recognize you 
are talking that improvements need to be made.
    Mr. Beauvais. Right.
    Mr. Burgess. And I appreciate that.
    Mr. Beauvais. But when the rule was written in 1991, the 
focus was on what was the technique that--it is a technology-
based standard, not a health-based standard. So, it focuses on 
what levels could be achieved by corrosion control, the 
application of optimal corrosion control, techniques across 
systems. And the action level was generated off that. But yes, 
you are absolutely right that the public notice requirements 
that are in the rule are intended to provide the public with 
information about how the system is performing.
    Mr. Burgess. So even with the imperfection of the lead and 
copper rule as it existed a year and a half ago, should it have 
signaled that there is a problem here?
    Mr. Beauvais. Yes, I think first and foremost to make the 
switch from Detroit water to Flint water required an approval 
from the State. And at that time, the system should have been 
advised to apply corrosion control to the new water source and 
that was not done.
    Mr. Burgess. And it is your expectation with the 
improvements to the rule that you are anticipating these things 
will be mitigated.
    Mr. Beauvais. That specific problem we have already issued 
a memorandum clarifying, in case there was any misunderstanding 
for large systems that that is a requirement.
    Mr. Burgess. What about just sort of the ongoing 
surveillance of my municipal water system back home, do they 
check it for lead and copper? Are they required periodically to 
do an assessment?
    Mr. Beauvais. They absolutely are. However, the Flint 
experience has brought to light a number of concerns around 
sampling techniques and approaches and that is something that 
we are already focusing on. We have already new guidance to 
States across the country asking them to adopt the most 
protective sampling techniques and that is something that we 
will be looking in the course of the rule of revisions.
    Mr. Burgess. And who checks the checkers to make sure the 
checkers are checking?
    Mr. Beauvais. Right, that is our challenge in this 
federalist system of----
    Mr. Burgess. I check with my municipal water systems, 
obviously, after this story is on the front page of the 
newspapers, are you doing your job. And they are. And I am 
grateful for that. The numbers are in compliance.
    But then, Mr. Lyon, as I look at the EPA's map of the City 
of Flint, Michigan and see the dots on the map that are 
published as of April 11th, it is pretty startling. You have 
got about 60 dots equally distributed north and south of the 
river and only one of them is in the zero range. Fortunately, 
they are not all in the highest range but I am sure they are 
all in higher ranges than we would like to see. So, that is a 
significant problem, which I assume you have got on your radar 
screen and you are zeroing in on those dots that are of the 
highest intensity. Is that correct?
    Mr. Lyon. Yes, Dr. Creagh is. He does the water piece with 
the map that you are referencing. He knows about it.
    Mr. Burgess. Well, I think it is good that you have made 
this public----
    Mr. Lyon. Yes, we are aware.
    Mr. Burgess [continuing]. So that people can, not real-time 
but almost real-time, assess it for themselves.
    Mr. Beauvais, let me just ask you because you mentioned in 
your testimony something and I am not familiar with this term, 
an EPA-wide elevation memo was issued. What is an elevation 
memo? I have been on this committee for 11 years, and I haven't 
seen that term.
    Mr. Beauvais. That is how we refer to a memorandum that was 
issued by Administrator McCarthy to all staff at EPA in January 
of this year, really highlighting the critical importance that 
in situations where there is an understanding at a staff level 
in particular that public health may be at risk, that staff 
take the initiative to elevate those issues to higher levels of 
management and that we work collectively as managers and 
leaders across the across the agency to ensure that we are 
creating an environment where that happens and is welcomed.
    Mr. Burgess. Can you share with the subcommittees involved 
the internal memoranda that related to that elevation memo 
being issued?
    Mr. Beauvais. Absolutely.
    Mr. Burgess. And just finally, there will be an EPA OIG 
report that is generated as a result of all of this. Do you 
know when that is going to be made public?
    Mr. Beauvais. I prefer to let the Office of Inspector 
General speak to the timing of that.
    Mr. Burgess. Thank you, Mr. Chairman. I will yield back.
    Mr. Pitts. The Chair thanks the gentleman and have a UC 
request from the ranking member.
    Mr. Green. Mr. Chairman, I ask unanimous consent to place 
into the record a statement from the American Public Works 
Association, the Ohio Department of Health, Director of Health, 
the American Academy of Pediatrics, and also the National 
Medical Association. I unanimous consent to place it into the 
record.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. The Chair now recognizes Mr. McNerney, 5 minutes 
for questions.
    Mr. McNerney. I thank the Chair.
    One of the important lessons from the tragedy in Flint is 
the importance of investing, of course in this case it is in 
corrosion controls, what may seem like a lower priority 
investment could avoid a large public debt in the future.
    Mr. Beauvais, what exactly is corrosion control and are 
there different types of corrosion control for different water 
systems?
    Mr. Beauvais. There are different types of corrosion 
control and the application of corrosion control really 
depends, in significant part, on the chemistry of the source 
water, as well as the configuration of the system.
    So, one common method of protecting against corrosion is 
the addition of orthophosphate, which is what is being done in 
the Flint system now and that effectively provides a coating on 
any lead service lines or pipes in the system to prevent 
leaching of lead into the water.
    Other techniques involve adjusting the pH of the water to 
reduce corrosion of the system----
    Mr. McNerney. I realize that Flint is unique. Do we have to 
worry about lead poisonings in other communities because of 
corrosion of pipes, of lead pipes?
    Mr. Beauvais. In any system that has lead service lines or 
lead premise plumbing, it is important to apply techniques to 
avoid that corrosion and certainly this is a challenge for many 
communities across the country.
    Mr. McNerney. So, is EPA doing anything to incentivize 
adoption of corrosion control in other communities?
    Mr. Beauvais. Well, in fact, the Lead and Copper Rule 
requires it and so one of the things that we are doing, we 
recently issued a new technical resource to help walk 
communities through how to do corrosion control to update 
preexisting guidance. And our regional offices, as I mentioned 
earlier, engaged with every primacy State across the country to 
ensure that they are taking a close look at any lead action 
level exceedances in it.
    Mr. McNerney. And this crisis has caused other communities 
to be more aware of the problem, I take it.
    Mr. Beauvais. Absolutely. There is definitely a strong 
focus on this now and I am sure members of the second panel 
will also speak to that.
    Mr. McNerney. OK, what more could Congress do to encourage 
water systems to make those kind of investments?
    Mr. Beauvais. Well, I think the oversight that Congress is 
providing and the attention that Congress is helping to bring 
to the issue is certainly helpful. We appreciate any support 
that we can get for our efforts to strengthen implementation of 
the rule now, as we engage with States and water systems across 
the country. And of course, this will be an important element 
of the Lead and Copper Rule revision so, we appreciate the 
committee's strong support for moving forward with that.
    Mr. McNerney. Very good. Well, corrosion controls are only 
one part of what the City of Flint needs to do to operate its 
water systems safely and sustainably. For example, Mr. Creagh, 
you mentioned that the city is losing large amounts of treated 
water in its distribution system every day.
    Now, being from California, we have a water crisis almost 
every year. So, this is an issue that we care about very 
deeply, as well as contamination. What do you recommend?
    Mr. Creagh. So, we are working very closely with EPA and 
the city looking at the reliability study, doing hydraulic 
monitoring, doing tracer studies to figure out how long the 
water is in the system and how best to address those concerns 
for the community.
    Mr. McNerney. So, there is technology that is good at 
detecting these leaks.
    Mr. Creagh. Yes, sir.
    Mr. McNerney. OK. Is it pretty expensive to implement that?
    Mr. Creagh. The monitoring technology I wouldn't say is the 
expensive part. The right sizing the infrastructure would be 
the cost concern.
    Mr. McNerney. Thank you. Well, as we look to the future, we 
must invest aggressively in our water infrastructure. I think 
everybody knows that. But when you do so in a sustainable way, 
this should include incentivizing corrosion controls, water 
loss audits, and other methods to ensure that our water systems 
can afford safe and affordable water well into the future.
    The EPA has committed a year ago to developing health-based 
household action level for lead to help parents, pediatricians, 
and local officials understand the risks to formula-fed infants 
so that they can protect children. Why hasn't the EPA issued 
this level yet?
    Mr. Beauvais. In fact, that was a recommendation that we 
had just received from the National Drinking Water Advisory 
Council this past December and we are, in fact, actively 
working on that.
    Mr. McNerney. So, you are not overdue on that 
recommendation.
    Mr. Beauvais. It really was a recommendation that came in 
the context of the Lead and Copper Rule revisions and we are 
actively working on it. That is a somewhat complex scientific 
endeavor that will require peer review and so forth.
    Mr. McNerney. So, you are not ready to give a commitment as 
to when you are going to release that information, that value.
    Mr. Beauvais. I can't. I can only say that we are working 
actively on it and when a product is ready for peer review, 
that will be done.
     Mr. McNerney. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the gentleman from West Virginia, Mr. 
McKinley, 5 minutes for questions.
    Mr. McKinley. Thank you, Mr. Chairman.
    I have got a couple of questions, Mr. Beauvais, if I could 
start with you on it. Maybe at first you are not going to be 
able to answer, but if you could get back to me.
    And that is, in your testimony you say there are 68,000 
water systems in America. I have asked this question of other 
panels on this and no one has gotten back to me. I would like 
for you to get back to me.
    What would be the breakout of communities, let's just say 
rural communities of 5,000 of fewer out of that 68,000? Could 
you get back to me on that?
    Mr. Beauvais. Absolutely. I think I can probably give you 
a----
    Mr. McKinley. You are not going to be able to give me that 
right now but we are looking for some kind of breakdown on the 
68,000. How many of them are coming? Because in the rural 
communities, often, they are going to be poorer, perhaps, less 
affluent, perhaps. So, they are going to face some other 
difficulties a we deal with this problem.
    I would also like to know from you, if you could, put 
together something that, based on the 1986 Safe Drinking Water 
Act, the number of homes that were constructed prior to 1986. I 
have got to think that that is going to be the majority of 
homes built in America, especially in rural areas that they are 
going to have older homes there that could have internal lead-
inducing issues with it.
    So, that leads to the next question of I think you are 
going to answer the question a posit, and that is, our plumbing 
fixtures, our lead solder, our galvanized pipe, just piping in 
general, our distribution within a house, even if we have the 
freshest, cleanest water coming into the home, aren't we 
possibly subjecting the homeowners and the people that live in 
there, the children and all, aren't they going to be subject to 
higher lead levels as well?
    Mr. Beauvais. Premise plumbing is certainly part of the 
issue. The lead service lines, the laterals that connect the 
water mains to the homes are one big concern but premise 
plumbing can also be as significant.
    Mr. McKinley. OK, I would like to understand more of that 
significance on that. I often refer to Mildred Schmitt. She is 
your neighbor. She is my neighbor. Mildred Schmitt, when this 
issue was raised, contacted the EPA to find out what do I do. I 
have heard it on Fox News. I have heard it on the news. I have 
got a problem. What am I supposed to do? And she is fortunate 
enough they have the internet, because that is what everyone 
tells you, you are supposed to go to the internet. And she may 
or may not have internet access. But if she does have it, this 
is what she got was this one-inch thick panel of papers that 
she is 82 years old, and she doesn't know what do with that. 
So, she is overwhelmed with this. This is not a user-friendly 
system that we have set up for people, Mildred Schmitt, to be 
able to address this problem. She doesn't know whether she has 
a problem or not.
    And so I am trying to understand--we have known about this 
problem, apparently since 1986 and it goes far beyond Flint. 
What differentiates this lead problem that manufacturers in 
solder, fixtures, plumbing lines, distribution systems and the 
like, what differentiates them from all the other settlements 
and litigation that we have had across this country over 
things? I just was listing them: the cigarette manufacturers, 
$206 billion settlement on that; the mesothelioma, the asbestos 
issue that was $30 billion that the manufacturers had to come 
up with; air bags; thalidomide; Corvair auto; ignition switch; 
engine coolant; breast implants. All of these manufacturers 
have had to step up and take care of this but we look over to 
the manufacturers of a lead-induced system in our homes and we 
are letting them pay no responsibility.
    What differentiates that? Why aren't they involved in 
helping out the homeowners, whether it is in rural America, 
rural West Virginia, or elsewhere? What is your response to 
that?
    Mr. Beauvais. I think it is a very good question. It is not 
something that I have thought about before but I would be happy 
to give it some thought and get back to you.
    Mr. McKinley. Not that I am trying to get litigation 
started on this but I don't understand the difference. If these 
homeowners don't know--Mildred Schmitt doesn't have two nickels 
to rub against each other and she may be faced with something 
that could cost $5,000 or $10,000 to fix the lead problem in 
her home. What is she supposed to do? She is living on Social 
Security.
    I think we have a real serious problem here as it relates 
to homeowners. So, I would really like to hear back what some 
solutions should be. Is this something Governments should step 
up, or is this the manufacturer should take care of it?
    So, I have run out of time, apparently. So, if any of the 
rest of the panel, if you could get back, I would sure like to 
know which direction we want to go in this. OK?
    Thank you very much.
    Mr. Pitts. The chairman thanks the gentleman and now 
recognizes Mr. Lujan, 5 minutes for questions.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    I have been dismayed by the events that have unfolded in 
Flint, Michigan, which are deeply tragic, because all of these 
could have been prevented. It was all preventable. And that is 
what I just heard from my colleague as well from West Virginia, 
that is where this frustration is coming from.
    And so I also hope that the crisis in Flint serves as a 
wake-up call to all of us in Congress and all across America 
that public health vital programs cannot be cut, that 
protections that should be in place should not be eliminated.
    I am reminded as we are hearing this debate, Mr. Beauvais, 
that there is questions about the standards set with the clean 
water drinking standard. And when there as a breach about a 
year ago in New Mexico and Colorado in the Animas River, it 
turned orange. There were heavy metals flowing through it. And 
we were told in New Mexico that it met the clean water drinking 
standard. I don't know one of you that would have picked up a 
glass water out of that river that day and put it into your 
body. We have got to look into this stuff because if it is 
making people sick and killing people, we have got to get our 
hands around it.
    So, with that being said, I am trying to understand what is 
going on in Flint and across the country but it has become 
apparent that there is a lack of good data on where kids are 
being exposed to lead. In my home State of New Mexico, I have 
become increasingly concerned by the risk level for lead 
exposure faced by many of our counties. New Mexico has received 
3-year funding from the Centers for Disease Control and 
Prevention for lead poisoning prevention programmatic 
activities. However, just this week, the Associated Press 
analysis of data from the U.S. Environmental Protection Agency 
and the New Mexico Environment Department found that 20 small 
water systems across the State of New Mexico have exceeded the 
Federal lead standard at least once in the last 5 years. This 
is truly alarming. And I know, Dr. Lurie, that you share that 
concern with me.
    Is it true that the Federal Government does not require 
States to submit lead exposure data?
    Dr. Lurie. So, I think as we have been looking at how to 
strengthen lead program, one of the things and improvements we 
have been talking about is publicly posting lead data and 
obviously in a way that provides anonymity for patients but 
makes clear what the levels and issues are. And as we look 
forward to strengthening the lead program in general, I think 
we very much look forward to working with Congress on a set of 
proposals to do that.
    Mr. Lujan. So, Dr. Lurie, the answer to that question is 
no, the Federal Government does not require States to submit--
--
    Dr. Lurie. Does not require States to submit----
    Mr. Lujan [continuing]. Lead exposure data.
    Dr. Lurie. No.
    Mr. Lujan. Do you believe that the variability between 
State reporting standards makes it difficult for decision-
makers to understand the level of lead exposure risk across the 
country?
    Dr. Lurie. I am not totally sure that I understand your 
question but it does seem as though there needs to be readily 
understandable, interpretable standardized data that let us all 
be able to act.
    Mr. Lujan. That is the essence of the question, Dr. Lurie. 
It is my understanding that there is not a standard for how 
States even report that. That from one jurisdiction to the 
next, the data that is being reported is very different. And so 
there needs to not only be a requirement that this data be sent 
to the Federal Government, there needs to be a standard that is 
established as well.
    And what steps should be taken to strengthen State and 
Federal programs to screen children for elevated blood levels?
    Dr. Lurie. So, on the part of your question I would really 
like to get back to you on the facts because that is not a 
level of detail that I am familiar with.
    On the State and local level, otherwise, there is a very 
good Medicaid standard, for example, about screening but I 
think we also know that while there have been vast improvements 
over the last decade or so and we are up to somewhere in the 
low 60 percents for Medicaid screening, we are really looking 
toward universal screening of young children to be sure that we 
can catch kids with lead. And strengthening the surveillance 
programs and potentially even automating some of those systems 
so that we can have an early warning system that is in real-
time and is better is a real focus of the discussion going 
forward.
    Mr. Lujan. I think you just described, Dr. Lurie, why there 
is such an importance with preventative care with screenings 
and with checkups on a regular basis so that we were able to 
catch as much of this as we can as early as we possibly can.
    And then lastly, as my time runs out, Dr. Lurie, I just 
want to appreciate the attention that you brought to the 
behavioral and mental health aspect of this. There are too many 
people that have been traumatized over this and the emotional 
toil that has been experienced is traumatic. It also brings us 
back to the importance of what needs to be done for mental and 
behavioral health programs. So, thank you very much for your 
time today for this important hearing.
    Mr. Chairman, with that, I yield back the balance of my 
time.
    Mr. Pitts. The chairman thanks the gentleman.
    I now recognize the gentleman from Virginia, Mr. Griffith, 
5 minutes for questions.
    Mr. Griffith. Thank you very much.
    The two witnesses from Michigan referenced Dr. Mark Edwards 
of Virginia Tech. I will ask each of you, it is kind of a yes 
or no except it is not, question and that is, Dr. Mark Edwards 
hero or gadfly troublemaker? We will start with you, Mr. 
Beauvais.
    Mr. Beauvais. Well, Dr. Mark Edwards, the collaboration 
between EPA and Dr. Edwards has been extremely useful to us. 
So, he surely is a hero in this.
    Mr. Griffith. Dr. Lurie?
    Dr. Lurie. Similarly, he has been a very important 
collaborator and someone who has also earned the trust of the 
community in important ways for moving forward.
    Mr. Griffith. Mr. Lyon?
    Mr. Lyon. Not only would I want to recognize Dr. Edwards 
for his work but I would want to recognize Dr. Hanna-Attisha, 
who is going to testify later. Their independent look at this 
certainly brought us around. So, thank you.
    Mr. Griffith. Mr. Creagh?
    Mr. Creagh. I would echo Director Lyon to thank both those 
doctors for providing the leadership to resolve this issue 
also.
    Mr. Griffith. All right. So, here is the problem. Because 
he dropped everything he was doing, didn't teach class, in fact 
in an article that appears in the Roanoke Times today, he says 
he is not sure why Virginia Tech still has him on staff because 
he hadn't taught any classes, hadn't had time to write grant 
money, spent $250,000 out of their funds, 5 years' worth of 
man-hours working on this project. They have got a cash flow 
problem and in fact have set up a GoFundMe page, Flint Study 
VT, trying to raise money to offset the work that they have 
done.
    I ask each of you, do your programs, do your agencies have 
a fund available? And to the folks in Michigan I would say if 
you don't have a fund available, you have a full-time 
legislature, if I remember correctly, perhaps a bill ought to 
be put in to help offset or defray some of these costs.
    I don't know about the other person that you mentioned. She 
is not my constituent. But when I read an article about one of 
my constituents who has done the right thing for another part 
of the country and expended funds that have now put them into a 
little bit of a financial hole, that is what I am looking for.
    So, again, Mr. Beauvais, just because you are at that end 
of the table, if you would start. Are there funds available at 
the EPA to help defray these costs?
    Mr. Beauvais. Well, in fact, we have provided support to 
some of Dr. Edwards' recent work in Flint.
    Dr. Lurie. I am going to have to look into the kinds of 
funds that are available, although I am not aware that we have 
received any requests for funding.
    Mr. Griffith. I understand. Mr. Lyon, and either one of you 
can speak for Michigan.
    Mr. Lyon. I was going to defer.
     Mr. Creagh. So, I do know that that is a direct 
conversation being held in Michigan to see how we can support 
Dr. Edwards in his research.
    Mr. Griffith. All right, I appreciate that very much.
    Mr. Chairman, if I might, I would ask unanimous consent for 
that article from the Roanoke Times in today's paper to be 
submitted to the record.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Griffith. And let me move on, then, to other newspaper 
articles that I have read. Miguel Del Toral, according to some 
recently released emails in an article that I read out of The 
Detroit News back at the end of March, indicated that in an 
email that was released that, at one point in time, he had 
offered to do more tests in Flint, Michigan on his own dime to 
prove that what he was saying up the chain, that there is a 
problem here, would come out.
    I have to wonder if the EPA has just got too much 
bureaucracy when they can't even listen to their own people in 
the field and they are offering to do it on their own dime and, 
instead, they get the stiff arm. I know that you didn't have 
anything to do with that, but Mr. Beauvais, what are we going 
to do in the future? I mean that is what this hearing is about 
to make sure that when your own people are saying there is a 
problem, they are not just totally dismissed and, in fact, he 
would appear punished. Again, I know that is debatable but it 
appears that he was punished for a short period of time.
    Mr. Beauvais. Well first of all, let me just say that 
Miguel Del Toral is an incredibly valued member of EPA's team, 
one of the national experts in this area. I am not aware of any 
punishment of him but I----
    Mr. Griffith. I understand.
    Mr. Beauvais [continuing]. Do think that it is very 
important that concerns that get raised at a staff level be 
appropriately elevated and get appropriate attention. And that 
is precisely the point of the policy memo that was discussed.
    Mr. Griffith. And I know your position and I am not fussing 
at you but I will tell you in another hearing that I attended, 
not this committee, in regard to this, the mom, the hero mom in 
this situation was told that he had been dealt with and he 
disappeared for a period of time because he had been dealt 
with. I consider that a form of punishment. The EPA may not 
consider it that but I do.
    And that is the kind of thing that bothers when we have 
folks saying that we need more money. And I am sure that there 
is always use for more money but if you just listened to the 
folks on the ground, you could have stopped this problem 
sooner. And that is my concern as a Federal representative 
talking to the Federal representatives of the EPA. You all had 
a chance. You missed it. I am not trying to bust your chops but 
I want to make sure that you all get the system right so when 
this happens again, because the same article in the Roanoke 
Times says they are looking at Philadelphia.
    I yield back, Mr. Chairman. Time is up.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the gentlelady from Illinois, Ms. 
Schakowsky, 5 minutes for questions.
    Ms. Schakowsky. Thank you, Mr. Chairman, for holding this 
important hearing.
    I was one of a pretty large delegation that went to Flint 
last month. I know Dr. Lurie was part of the--was one of the 
presenters and was there. I don't know if I met the others of 
you when the 25 Members led by Leader Pelosi, the Congressional 
Progressive Caucus, the Congressional Black Caucus for a speak-
out, but we also had a panel and had an opportunity to see the 
incredible resources that were pulled together at that point to 
really address the problem. And, obviously, nothing is too much 
for us to do to correct this problem.
    And it is not really contained to the City of Flint. There 
may be some particular circumstances, as was mentioned, but 
cities across the country have these aging water systems, these 
underground infrastructure problems and there could be lead, I 
know, in Chicago because so many kids live in homes with lead 
paint. The latest data we have for the City of Chicago shows 
that in 2014 approximately 675 children had elevated levels at 
10 times the amount but I think that is really underestimated. 
We don't do a lot of testing.
    So, Dr. Lurie, as a key part of the State's response, and 
this has been discussed somewhat in Flint, was its application 
for a Medicaid waiver to extend Medicaid coverage to thousands 
of children and pregnant women in Flint to ensure that our most 
vulnerable receive the comprehensive and ongoing care that they 
need. And thankfully, this waiver was approved.
    The coverage provided through this new Medicaid waiver, 
which also eliminated premiums and cost-sharing and broadened 
case management benefits for all the beneficiaries in Flint is 
clearly going to make a difference in the lives of Flint 
residents for years to come.
    So, I am wondering if you could speak to why Medicaid 
coverage, in particular, was and continues to be such a vital 
part of the broader Federal response in this situation.
    Dr. Lurie. Thank you. I appreciate the question. And as we 
have discussed, one of the situations we had here was that we 
had all kids in Flint exposed to the Flint water system and all 
kids in Flint and families in Flint potentially exposed to very 
concerning levels of lead. Medicaid is the healthcare 
infrastructure particularly for low-income people in this 
country. It not only provides, however, access, to basic 
healthcare, in this case, Medicaid is a terrific solution 
because it also can provide through expanded services case 
management, behavioral and developmental services and other 
things like transportation for people who have difficulty 
getting to medical care.
    So if, in fact, we want to get kids into see a primary care 
provider through their medical home and help them use the 
services that are available to them, often we need case 
management, transportation services, as well as all the other 
things we call wraparound services, the developmental 
behavioral services, the home visiting, all of those things 
that are required to be sure kids get what they need.
    Ms. Schakowsky. So, that is on the list of things that now 
are available. How is it going in Flint?
    Dr. Lurie. So, right now, we are waiting for the State 
legislature to approve the Medicaid expansion so that we can 
actually get those services off the ground. We understand from 
the State that that is coming. And meanwhile, the Center for 
Medicare & Medicaid Services and all of us are looking at ways 
to lean forward both to monitor uptake but to be really 
proactive within the community about being sure that people 
know the services are available and are able to take advantage 
of them. Many, many community organizations are on the ground 
poised and ready to get kids enrolled.
    Ms. Schakowsky. So, the legislature in Michigan has to 
approve this. What is the time line there?
    Mr. Lyon. Thank you for the question. We are working with 
them, at this point, daily on getting their approval to do 
this. So, it is something that we are working on. It was what I 
referenced a little bit earlier. They were looking, as part of 
the budget request, where it would have taken a little bit 
longer to get this in place. We have asked them to expedite 
that. And we are ready to implement as well.
    So, there are some technology revisions that will have to 
happen. There are things that have to occur but it should be a 
pretty quick implementation time frame, once we have that off 
the ground.
    Ms. Schakowsky. Now, is this administered in the same way 
or funded in the same way that Medicare is with the State match 
as well as the Federal dollars?
    Mr. Lyon. The same with Medicaid. It is matched with State 
dollars, yes.
    Ms. Schakowsky. So, do you have any expectation on when the 
money can be approved?
    Mr. Lyon. I would want to be careful speaking on behalf of 
the State legislature for obvious reasons. But again, I think 
we have an education process we are doing with them. They had a 
lot of other priorities in front of them as well and we have 
gotten to the right people to assure that decisions can be made 
quickly.
    Ms. Schakowsky. Thank you. I yield back. Thank you.
    Mr. Pitts. The chairman thanks the gentlelady and now 
recognizes the gentleman from Florida, Mr. Bilirakis, 5 minutes 
for questions.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it. 
Thanks to the panel for your testimony.
    The first question would be for Mr. Beauvais. I pronounced 
that right, correct?
    Mr. Beauvais. Yes, that is right.
    Mr. Bilirakis. OK. You mentioned that the EPA's role is to 
maintain Federal oversight of the State's drinking water 
programs. Why, then, didn't the EPA intervene after numerous 
violations, including the complete absence of corrosion control 
treatment by the City of Flint that was noted apparently in the 
June 2015 by Mr. Del Toral? Why didn't the EPA intervene?
    Mr. Beauvais. Well, in fact, the EPA staff were intensively 
engaged with their State counterparts from the period as soon 
as they--they were initially told that corrosion control was 
being applied and then later informed that it, in fact, was not 
being applied. From that point in time, EPA was intensively 
engaged with State counterparts to MDEQ. Ultimately----
    Mr. Bilirakis. When? Can you give me a date on that?
    Mr. Beauvais. EPA was informed in April of 2015 that 
corrosion control was not being applied. A series of 
engagements ensued. By July of 2015, MDEQ had indicated that it 
would go and ask Flint to apply corrosion control.
    Mr. Bilirakis. Thank you. The next question, sir.
    There have been Safe Drinking Water Act violations in 
several States, including my home State of Florida. What 
administrative steps has the agency taken to ensure that 
similar problems that may occur across the country are acted 
upon quickly, of course, and do not lead to another public 
health crisis?
    Mr. Beauvais. Well, we focused on two key actions that are 
closely related to one another. One is that our regional 
offices are engaged with every single State drinking water 
program that has primacy across the country to review all of 
the data with regard to led action level exceedances to ensure 
that those are being addressed and that corrosion control is 
being applied where needed and that any other steps that need 
to be taken are taken.
    The second is that we sent letters to every Governor and 
every State drinking water regulatory agency head for the 
primacy States in the country asking them to focus appropriate 
attention and resources on this, asking for a series of 
concrete steps, both with regard to implementation of the rule 
and increased transparency and accountability in the way that 
sampling results and other information are being provided to 
the public.
    Mr. Bilirakis. Thank you. Next question.
    While lead levels are improving, Flint water still exceeds 
Federal standards and virtually all homes must still be 
considered at risk. Do you have an estimate as to when drinking 
water in Flint will be back in compliance with the Safe 
Drinking Water standards?
    Mr. Beauvais. I mean I think I would share the view that 
Director Creagh articulated earlier, which is that I don't feel 
that we can hazard a guess as to the timing.
    At this point in time, directionally, things are improving 
and we really need to be guided by the data and the experts in 
assessing when we are back to a situation where it is safe to 
drink.
    Mr. Bilirakis. Well, can you get back to us on this one?
    Mr. Beauvais. Absolutely, we are happy to do it.
    Mr. Bilirakis. Thank you.
    Experts stress the importance of water use in homes so that 
the orthophosphate and chlorine added to improve the water 
quality that flow through the pipes. Given that many Flint 
residents are hesitant to run their water, and you can't blame 
them, whether it be for safety or financial reasons, and that 
there is a growing vacancy in the housing market how will a 
flushing program be successfully implemented?
    Mr. Beauvais. Well, I want to give Director Creagh and 
opportunity to respond to this as well. I think that is exactly 
the challenge that we are now grappling with is both to 
identify an appropriate protocol and then to develop an 
approach to make that happen on the ground. And of course I 
think the question of water bill forgiveness is certainly going 
to be an element of that discussion.
    Mr. Bilirakis. Director?
    Mr. Creagh. I certainly agree with Mr. Beauvais. Our staffs 
are working together to agree upon with Dr. Edwards on an 
agreed upon flushing protocol and then there is high-level 
conversations looking at forgiveness of any of that cost 
because we do need to have the assistance to participate in 
this effort.
    Mr. Bilirakis. Director, I have a question for you. Do you 
believe that those in your agency, appointed or otherwise, had 
the necessary training and/or certification for managing the 
city's drinking water system with regard to implementing and 
enforcing regulations mandated by the Safe Drinking Water Act?
    Mr. Creagh. I think it goes beyond the technical training 
of staff. And that is one of the reasons why we are exploring 
apprenticeship programs with the American Water Works 
Association and some of the municipalities so that employees 
get more hands-on training, so they understand what happens 
inside the plant and the results of their actions.
    Mr. Bilirakis. Thank you, Mr. Chairman, I yield back. I 
appreciate it.
    Mr. Pitts. The chairman thanks the gentleman and now 
recognizes the gentleman from Mississippi, Mr. Harper, 5 
minutes for questions.
    Mr. Harper. Thank you, Mr. Chairman, and thanks to each of 
you. And it appears that I am the last person to ask questions. 
So, thank you for being so patient on this.
    Mr. Beauvais, I know that you followed up on some questions 
that Mr. Green had asked earlier and Chairman Upton followed up 
with about the EPA intends to make long-term revisions to the 
Lead and Copper Rule, a question about when. What are the key 
issues for EPA in hammering this out?
    Mr. Beauvais. Well, I think some of the key issues relate 
to lead service line replacements. That is a very, without 
getting into all the gory details, that is a very complex and 
challenging area because of the way that ownership and control 
of lead service lines works and the expense associated with 
lead service line replacements. So, that will be one of the key 
issues to grapple with.
    Another, for example, is the recommendation of the 
development of a household action level that would be used to 
trigger notification and intervention from public health 
officials.
    And there is a series of others which I would be happy to 
outline.
    Mr. Harper. Sure but thank you very much.
    Does EPA have any concerns about National Drinking Water 
Advisory Council recommendations? And if so, which ones?
    Mr. Beauvais. I wouldn't say concerns. I guess what I would 
say is we have also had--we have received recommendations and 
input from a number of other concerned stakeholders. There was 
a dissenting member of the Council who submitted a separate 
opinion or set of recommendations. And the other thing to 
mention is just, as I was saying earlier, the working group, 
the Lead and Copper Rule Working Group's recommendations that 
ultimately came up through the council were really developed 
before the whole experience in Flint came into the national 
consciousness in the same way. So, we are learning a lot on the 
ground and we are learning a lot as we engage across the 
country and that will also influence our thinking on the 
proposed rule.
    Mr. Harper. You know you have said there is a lot of data 
coming in that has got to be evaluated, reevaluated and 
continuing input that is going to go on that. But what is go 
beyond the requirements?
    Mr. Beauvais. Well, one of the things that we have asked 
the State regulators to look at and drinking water system 
operators to look at is the current rule, for example, doesn't 
require public posting of the individual sampling results. 
Regulators are required to report to us the 90th percentile 
results but we really felt strongly that consumers and resident 
citizens would benefit from having that information be made 
publicly available. So, that is one area.
    And we have provided some information on recommended 
sampling protocols that are not strictly speaking regulatory 
requirements of the current rule but we have encouraged people 
to adopt those as more protective. And there is a couple of 
other areas, as well, that we have focused on.
    Mr. Harper. And Mr. Beauvais, one of the other cities that 
has received some national news is Jackson, Mississippi in my 
district as well. And I know that city officials have been 
working with EPA during this time and we certainly appreciate 
that assistance.
    In your testimony, you state that Administrator McCarthy's 
called for an IG investigation to investigate EPA's response to 
the Flint crisis. Do you know when that IG investigation and 
report will be completed?
    Mr. Beauvais. I think I will have to defer to the Office of 
Inspector General on the timing of their report.
    Mr. Harper. Well, on February 29th, the EPA sent a letter 
to ensure water systems were following the lead and copper rule 
to the Mississippi State Department of Health and agencies in 
each State across the country to enforce that rule. In it, EPA 
asked the States to work with public water systems with a 
priority emphasis on large water systems to increase 
transparency in implementing the Lead and Copper Rule by 
posting that information.
    Any idea why there was an emphasis put on large water 
systems? Is it just the sheer volume of customers or is it a 
starting point? Explain that.
    Mr. Beauvais. I think something in the nature of triage. 
This is a huge level of effort that needs to be made by State 
drinking water system operators. So, there was an encouragement 
to start with large systems and then kind of work down the 
stack. We understand there is a number of unique challenges 
that small systems face and it is important to grapple with 
those as well.
    Mr. Harper. I think we all understand the importance of 
clean drinking water and we want to say we appreciate the 
assistance and look forward to a resolution.
    And with that, I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    At this point, the members' questions are concluded. We 
will have follow-up questions we will send to you in writing. 
We ask that you please respond promptly to that.
    And so at this point, we are going to take a short break 
while the staff sets up the witness table for our second panel. 
The subcommittee will stand in recess for 3 minutes.
    [Recess.]
    Mr. Pitts. All right, the time of recess having expired, 
the subcommittee will reconvene.
    I will ask our second panel to please take their seats and 
the witness table. I will introduce them in order of their 
presentations.
    First of all, Dr. Mona Hanna-Attisha, MD, MPH Program 
Director Pediatric Residency, Hurley Children's Hospital, 
Hurley Medical Center, Assistant Professor of Pediatrics, 
Michigan State University College of Human Medicine. Welcome.
    Second, Joan Alker, Executive Director at the Center for 
Children and Families, Georgetown University. Welcome.
    Mr. Steve Estes-Smargiassi, Director of Planning and 
Sustainability, the Massachusetts Water Resources Authority. 
Welcome.
    June Swallow, President and Administrator, Rhode Island 
Drinking Water Program, Rhode Island Department of Health. 
Welcome.
    Finally, Mae Wu, Senior Attorney, Health and Environment 
Program, Natural Resources Defense Council.
    Thank you for coming, each of you. Your written testimony 
will be made a part of the record. You will each be given 5 
minutes to summarize your testimony. Our little light system is 
not working so they are on the floor, along with the wires. So 
be careful, anyone walking, not to step on the wires. But at 4 
minutes, I will give you a couple of taps to give you a signal 
that you have got 1 minute left of your 5-minute testimony and 
please ask you to wrap it up at 5 minutes.
    So, we will start with Dr. Mona. You will be recognized now 
for 5 minutes to summarize your testimony. You are recognized.

STATEMENTS OF MONA HANNA-ATTISHA, M.D., ASSISTANT PROFESSOR OF 
    PEDIATRICS, MICHIGAN STATE UNIVERSITY COLLEGE OF HUMAN 
  MEDICINE, AND DIRECTOR, PEDIATRIC RESIDENCY PROGRAM, HURLEY 
    CHILDREN'S HOSPITAL; JOAN C. ALKER, EXECUTIVE DIRECTOR, 
GEORGETOWN UNIVERSITY CENTER FOR CHILDREN AND FAMILIES; STEPHEN 
  ESTES-SMARGIASSI, DIRECTOR OF PLANNING AND SUSTAINABILITY, 
   MASSACHUSETTS WATER RESOURCES AUTHORITY, ON BEHALF OF THE 
AMERICAN WATER WORKS ASSOCIATION; JUNE SWALLOW, ADMINISTRATOR, 
RHODE ISLAND DRINKING WATER PROGRAM, RHODE ISLAND DEPARTMENT OF 
  HEALTH, AND PRESIDENT, ASSOCIATION OF STATE DRINKING WATER 
  ADMINISTRATORS; AND MAE C. WU, SENIOR ATTORNEY, HEALTH AND 
     ENVIRONMENT PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL

                STATEMENT OF MONA HANNA-ATTISHA

    Dr. Hanna-Attisha. Thank you. Good afternoon. Now, I would 
like to begin by thanking Chairman John Shimkus and Chairman 
Joe Pitts, along with Ranking Member Paul Tonko and Ranking 
Member Gene Green, for the opportunity to testify at today's 
joint subcommittee hearing on the Flint Water Crisis and most 
importantly, on the plan to move forward.
    I would also like to thank Chairman Fred Upton from 
Michigan, Ranking Member Frank Pallone, and their respective 
staff members for their continued interest and work on this 
issue.
    This is a very important topic and I am pleased these two 
subcommittees have chosen to devote today's joint hearing to 
the public health situation in Flint the and long-term needs of 
our community.
    It has been said that pediatricians are the ultimate 
witnesses to failed policies. And as a pediatrician in Flint, I 
can attest to that. Our children were failed by every agency 
that was supposed to protect them. I am not going to go into 
the details. You know what happened with Flint. A lack of 
corrosion control created a perfect storm for lead to leach out 
from our plumbing into our drinking water and into the bodies 
of our children. There is no safe level of lead. Lead is a 
potent, irreversible neurotoxin that impacts our children for 
decades and generations to come. The treatment for lead is to 
prevent all exposure to lead because there is no magic pill for 
lead. There is no lead antidote.
    So, since we were able to prove that lead was getting into 
the bodies of children, our focus has always been on their 
tomorrows and what are we going to do next for our kids. And we 
are focused on that moving forward. Flint is an incredibly 
resilient community with a proud past and we are hopeful and 
determined to create an even more promising future. Our 
community is committed to rebuilding and to creating a 
sanctuary where our children can recover and flourish. We 
cannot wait to see the potential cognitive and behavioral 
consequences of lead exposure. We must act and we must act 
quickly.
    We are grateful for the State and the Federal support that 
has come in thus far and while these are helpful and 
appreciated, most are, unfortunately, only temporary expansions 
or increases in funding and will not adequately address the 
long-term needs of Flint's children.
     On the academic side, Michigan State University and Hurley 
Children's Hospital have launched something called a Pediatric 
Public Health Initiative. This is our model public health 
program, a center of excellence, almost ground zero on lead, 
where we hope to continue the assessment of what happened to 
follow these children for decades but, most importantly, to 
intervene. To intervene for these children, which has never 
been done before and to become a model to create benchmarks so 
that the rest of the Nation can learn about what happened in 
Flint and how we were able to change the story and change a 
trajectory for our children.
    These evidence-based interventions span many domains, most 
importantly, education, nutrition, and health. Because there is 
no medical treatment for lead, the treatment for lead is 
mitigating the impact of lead. Early literacy programs, 
universal preschools, school health services, quality education 
systems are key for our children. Nutrition plays a tremendous 
role not only for preventing ongoing exposure but preventing 
long-term re-exposure. Lead eventually gets stored in your 
bones and it can last there for decades. When you are stressed 
or pregnant or have poor nutrition in your future, it comes 
back out of your bones and an cause that neurotoxicity all over 
again. So, that is why nutrition plays a critical role in 
mitigating this exposure.
    In terms of healthcare, we are grateful for the Medicaid 
expansion but that only covers our children. The adults were 
also exposed to lead and many other things in this water, 
including Legionnaire's Disease and many skin manifestations.
    So, current efforts at both the State and Federal level 
efforts--our efforts on the academic front are not enough. We 
need congressional action to address the necessary short- and 
long-term response. I firmly believe that it is the imperative 
of public policymakers at all levels of Government, regardless 
of party or affiliation, to act quickly to address the urgent 
needs of the Flint community. We need congressional lawmakers 
to respond to this manmade disaster with the same impetus and 
robust response as they do for any other kind of disaster. Our 
Nation has never been reluctant to aid victims of hurricanes 
and floods and tornadoes.
    Short-sighted cost-cutting and willful bureaucratic 
blindness caused the calamity in Flint but it is nothing short 
of a natural disaster. In addition, the magnitude of this 
disaster is much worse in the long-run. We are not a remote 
city in a developing world with a contaminated water supply. We 
are a great American city situated in the middle of the Great 
Lakes, the largest source of fresh water in the world, yet we 
are going on our third year with a contaminated water supply.
    Hopefully you agree that Flint families need our help. And 
it is my hope that our discussion today and with your 
committee's interest we will cut through the gridlock and spur 
significant action by Congress to create some legislation.
    Thank you for the opportunity to address the committee 
today and I look forward to your questions. Thank you.
    [The prepared statement of Dr. Hanna-Attisha follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Mr. Pitts. Thank you for your testimony.
    Ms. Alker, you are recognized for 5 minutes for your 
summary.

                   STATEMENT OF JOAN C. ALKER

    Ms. Alker. Thank you very much, Chairman Pitts, Ranking 
Member Green, and members of the committee. I am glad to be 
here today, thought the topic is, indeed a sobering one.
    I am not here today to talk about why the Flint crisis 
happened but rather to respond to the committee's charge of 
examining lessons learned. This is an especially important 
exercise for children around the country, not just in Flint, 
because they may, too, be at risk of high levels of lead 
exposure or some of them reside in places that are known to 
have high levels of lead exposure. So, we must examine the 
Flint crisis not only for the children of Flint but for 
children nationwide, especially low-income children, who are at 
greater risk of lead exposure.
    Of course, prevention is the key to ensure that such 
tragedies do not happen again. But sadly, prevention is too 
late for the children of Flint and other children who have 
already been identified with elevated blood lead levels. 
Policymakers must act immediately to ameliorate the harm that 
has been done. One essential part of this response is to ensure 
that these children have health coverage going forward, so that 
they may access the treatment they need now and in the future.
    And while there is so much bad news here, I would like to 
focus the committee's attention on some good news that emerged 
from this debacle. Governor Snyder, a Republican, and President 
Obama's administration, a Democrat, were able to come to 
agreement on a Section 1115 Medicaid waiver very quickly at a 
time of sharp partisan discord, especially on health policy. 
The waiver relies on the Medicaid program to form the backbone 
of the State's response to the health crisis for families in 
Flint.
    The terms and conditions of this waiver include an 
expansion of Medicaid and CHIP for children and pregnant women 
with incomes up to 400 percent of the Federal poverty level who 
were served by the Flint water system until they are age 21.
    This is not the first time that Medicaid has played a vital 
role in our Nation's response to an emergency. After the 
terrorist attacks of 9/11, the State of New York also obtained 
a Section 1115 waiver to extend Medicaid coverage to additional 
groups and simplify the application process.
    Following Hurricane Katrina, 15 States, DC, and Puerto Rico 
were granted Section 1115 waivers to provide temporary health 
coverage to those displaced by Katrina.
    Medicaid's financing structure and the flexibility afforded 
by the waiver process allow for this kind of nimble and 
comprehensive response in times of crisis. Because Medicaid 
funding is not capped, it is able to respond to unanticipated 
emergencies, whatever their cause.
    For children in situations such as that which has emerged 
in Flint, Medicaid's comprehensive pediatric benefit, and this 
is a real tongue twister, the Early Periodic Screening 
Diagnosis and Treatment or EPSDT benefit is essential. The 
Medicaid statute requires coverage of laboratory tests, 
including lead blood level assessments. And once a problem is 
identified through a screen, the EPSDT benefit requires that 
treatment must be provided. Children may not be charged 
premiums or copays in the Medicaid program, which can be a 
barrier to needed care.
    These features of Medicaid made it the obvious choice for 
Governor Snyder to turn to in responding to the crisis in Flint 
and responding to the health needs of those families.
    But the crisis in Flint creates an opportunity and, indeed, 
a responsibility to reexamine Medicaid policy with respect to 
lead more broadly and I would like to offer two suggestions for 
the committee to consider.
    Congress should consider ways to improve lead screening 
rates in Medicaid. Despite the requirement to screen for lead 
in the Medicaid program, screening rates are not where they 
should be. We don't have great data on this but it looks like 
for 1- to 2-year-olds across the U.S., the screening rate is 
only about 40 percent.
    States must ultimately be held accountable for low 
screening rates but it is also worth noting that most children 
in Medicaid in Michigan and elsewhere, as has been discussed, 
are receiving services through managed care. So, ensuring that 
managed care plans are held accountable for improving screening 
rates would go a long way towards ensuring that public health 
objectives are being met.
    Secondly, I would encourage you to review CMS policy, which 
allows States to request exemptions from universal screening 
requirements for lead. As a result of recommendations made by 
the centers for disease control, in 2012, CMS established a 
process by which States can request permission to target lead 
screenings, rather than screen all children in Medicaid.
    Recent events in Flint suggest to me that this option 
should be carefully reviewed and perhaps reconsidered At a 
minimum, there needs to be a more robust public process for 
States requesting exemptions from universal screening 
requirements.
    Thanks for inviting me to testify today, and I look forward 
to your questions.
    [The prepared statement of Ms. Alker follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Pitts. Thank you.
    Mr. is it Estes-Smargiassi? You are recognized or 5 
minutes.

             STATEMENT OF STEPHEN ESTES-SMARGIASSI

    Mr. Estes-Smargiassi. I am here today on behalf of the 
American Water Works Association.
    What I would like to do today is to discuss how what we 
already knew about the issues of lead in drinking water was 
underlined and emphasized by the events in Flint and some of 
what we think needs to be done going forward. I will do that in 
part by focusing on the recent recommendations of the National 
Drinking Water Advisory Council, MDWAC. And I would say that 
the AWWA Water Utility Council and its Board of Directors have 
both voted to support those recommendations.
    I will concentrate on three principle elements of shared 
responsibility. First, the important role of corrosion control 
in reducing the natural tendency of water to dissolve lead and 
other metals. Second, that we, as a Nation, must do more to 
reduce the amount of lead-containing materials that are in 
contact with the water we drink, especially the lead service 
lines connecting our older buildings with the water mains in 
the street. And third, how water supply and public health 
professionals can effectively communicate about the risks of 
water--of lead and work with our customers to reduce and 
eliminate those risks.
    Flint should have but did not do corrosion control 
treatment when they switched sources. It was required by the 
LCR. It is sound water treatment practice. It is not clear 
exactly why they didn't do it. What is clear is that treatment 
can dramatically reduce the corrosivity of water. In the Boston 
area, we began monitoring corrosion control treatment in 1996, 
after careful planning, pilot testing, consultation with 
national experts. We went from having some of the highest 
levels in the Nation, being able to show our customers a 90 
percent reduction.
    That same success story was repeated across the country, 
prompting the NDWAC to recommend that the requirements and 
guidance for corrosion control treatment be retained as the 
rule is revised and strengthened. The NDWAC specifically 
recommended retaining the current rule requirements to reassess 
corrosion control if changes to source water and treatment are 
planned. Even before the publicity surrounding Flint, the group 
underlined this existing provision as key to protecting public 
health.
     The NDWAC called for additional monitoring and the 
effective use of that date to ensure that treatment was being 
operated in a consistent manner and that water systems be 
required to review EPA guidance and update treatment as the 
science of corrosion control advances.
    While the root of the problem in Flint was that corrosion 
control was ignored, it was the fact that perhaps half of the 
homes still had lead services that caused lead exposures to 
rise so significantly. Estimates are that there are about 6 
million lead service lines in the U.S. installed a long time 
ago. They have been gradually replaced but the existing rule 
has not been effective at mandating substantial reduction. 
These factors caused NDWAC to recommend that over the long-term 
all lead services should be replaced from the main all the way 
to the house.
    The NDWAC recognized that a national program of lead 
service line replacement would need to be implemented locally, 
that each water system might have a different approach to 
dealing with the complex issues of identifying lead services, 
communicating with the property owner about the need to replace 
their portion and dealing with issues of cost, access and need 
of authority.
    The recommendation called for ongoing and regular outreach 
and efforts continue until every last service line is replaced.
    My system just announced $100 million zero-interest loan 
program our member communities to remove funding as an 
impediment to progress. Boston just enhanced their incentive 
program, doubling their subsidy to $2,000 and a no-interest 
repayment period to 48 months.
    The NDWAC also called for improved access to information 
about the location and ownership of lead services. A good 
example is the Boston Web site. Type in an address and up pops 
a map showing lead services.
    AWWA believes in a future with no lead services. In the 
meantime, we need to do better informing the public. That was a 
significant failing in Flint, a lack of transparency and a 
failure to take their customers' complaints seriously.
    The NDWC recommended targeted outreach to consumers with 
lead services and other vulnerable populations be a regular 
part of communication efforts and that the lead data be 
accessible. They also called on EPA to establish a national 
clearinghouse and Web site to provide up-to-date risk 
information, communication templates for use by water systems, 
models brochures, videos targeting different topics and 
audiences. AWWA is already providing additional materials for 
use by its members in their outreach.
    At the MWRA, we believe in transparency. All of our 
samples, collected under the LCR since 1992 are up on our Web 
site. We believe that public data provides public confidence.
    In summary, making further progress on lead is a shared 
responsibility. Water systems have made substantial investments 
in successful corrosion control and the enhancements 
recommended by the NDWAC should help many water systems do even 
better. As a community of professionals, water systems are 
committed to effective programs to alert our customers if they 
have lead services, to communicate the risk and to work with 
them to replace them.
    Our State and Federal regulators must exercise responsible 
oversight and provide useful technical assistance, especially 
to smaller systems.
    We and our partners in the public health community can 
implement more effective outreach so our customers are informed 
and empowered to make sound decisions about their drinking 
water.
    Thank you for the opportunity to appear today.
    [The prepared statement of Mr. Estes-Smargiassi follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Pitts. The Chair thanks the gentleman.
    Ms. Swallow, you are recognized for 5 minutes.

                   STATEMENT OF JUNE SWALLOW

    Ms. Swallow. Thank you.
    Good afternoon. My name is June Swallow and I am the 
Administrator of Rhode Island Department of Health drinking 
water program and also President of the Association of State 
Drinking Water Administrators. ASDWA represents the women and 
men in the 50 States, territories, DC, and the Navajo Nation 
who are responsible for administering the requirements of the 
Safe Drinking Water Act.
    I also served on the National Drinking Water Advisory 
Council Working Group that recommended long-term changes to the 
Federal Lead and Copper Rule. Those recommendations were 
forwarded to the EPA Administrator in December, 2015.
    Today, I will primarily focus on the lessons learned and 
the path forward.
    Flint was something of a perfect storm and we don't believe 
there are exactly comparable situations in other parts of the 
country. But it did expose vulnerabilities in our collective 
approach to providing safe drinking water and these we very 
much want to shore up. We will learn the lessons of Flint and 
apply them across the country so that we restore peoples' trust 
and, most importantly, help ensure safe drinking water for 
everyone.
    Deputy Assistant Beauvais' letter to the 50 States provides 
a good overall template for our collective near- and medium-
term actions. We want to be sure that water systems are 
implementing and the States are overseeing the current rule 
optimally and as intended. Where further guidance and 
clarifications are needed, those gaps need to be filled as 
quickly as possible.
    We will also work with our water systems to go above and 
beyond what the rule requires, such as transparently sharing 
information and sample results while working on long-term 
changes that will further solidify some of those above and 
beyond steps.
    For the long-term, we support the recommendations of the 
NDWAC, the most important of which is to get the lead out, 
removing entire lead service lines and installing lead-free 
plumbing components. To accomplish that lofty, but I believe 
attainable goal, we need a national effort across Federal, 
State, and local players, as well as some non-traditional 
partners, such as the real estate community.
    We also support the other key NDWAC recommendations, 
including establishing a household action level for lead, 
setting up a lead information clearinghouse, and providing 
greater overall transparency and timeliness in sharing sampling 
results with customers. We encourage EPA to move the revisions 
forward as quickly as possible and will actively assist.
    It is not just the lead, though. There are many other 
challenges. We urge the committee, as it considers this matter 
and possible actions, to be mindful of the fact that 
implementing the Safe Drinking Water Act is akin to playing 
three-dimensional chess. The rule requirements for the 90-plus 
regulated contaminants must be met all of the time at all of 
the 155,000 water systems that States oversee, most of which 
are small. And we, States, EPA, and utilities, must also be 
mindful of a host of new and emerging threats from which we 
need to keep the public safe, such as perfluorinated compounds, 
hexavalent chromium, perchlorate, and algal toxins, to name but 
a few.
    As critically important as the challenge of addressing lead 
in water is, we may not shift all of our time, attention, and 
resources; thus, creating other vulnerabilities.
    We also need to be mindful of what we call the multi-
barrier source-to-tap approach to this collective task. To best 
protect public health, the sources of drinking water need to 
first be protected through a variety of other statutes, 
authorities, and programs, including the authorities provided 
under the Clean Water Act, as well as USDA's various programs. 
Sources of surface and groundwater used by water treatment 
facilities need to be adequately protected from point and non-
point sources of pollution.
    We are most successful in our collective efforts when EPA, 
the States, and local Governments work together in partnership, 
respecting and fulfilling our various roles and 
responsibilities. States remain firmly committed to these 
partnerships and we believe they have been mutually beneficial 
and essential to protect public health.
    Finally, I would like to mention the importance of Support 
for both physical and human infrastructure. You are well aware 
of the issue of aging drinking water infrastructure, including 
service lines, and the costs and challenges of replacement. We 
appreciate the various bills that are seeking to address this 
need. Managers of State drinking water revolving loan fund 
programs stand ready to help in that task.
    But, there is also a human infrastructure shortfall in 
States of which you need to be aware. State drinking water 
programs need far greater support than they receive now. 
Congressional support for the Federal principal appropriation 
for State drinking water programs, the PWSS grant, has been 
level funded at about $2 million per State for the past decade. 
To address the increasing responsibilities and assure adequate 
oversight, at least twice that amount is needed for States.
    In summary, we are eager to apply the lessons learned in 
Flint, while being vigilant about all of the other challenges 
associated with providing safe drinking water, in collaboration 
with our Federal and local partners and with congressional 
support.
    Thank you for the time to speak to you today.
    [The prepared statement of Ms. Swallow follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Pitts. The Chair thanks the gentlelady.
    Ms. Wu, you are recognized for 5 minutes for your summary.

                     STATEMENT OF MAE C. WU

    Ms. Wu. Thank you. Good afternoon, Chairman Pitts, Ranking 
Member Tonko and members of the subcommittee. I am honored to 
have this opportunity to testify before you today. My name is 
Mae Wu. I am a senior attorney at the Natural Resources Defense 
Council and I am heartened to see the bipartisan concern and 
support for the struggles of this community. It is a primary 
role of Government to make sure that its citizens have access 
to safe and affordable drinking water and it is failing right 
now and it is going to take bipartisan and a concerted effort 
to resolve these problems.
    So, I am going to focus my testimony today on three things 
that we need to do. One, we need to fix Flint. Two, we need to 
fix the pipes. And three, we need to fix monitoring.
    So, the first thing we need to do is we need to help the 
residents of Flint. The water infrastructure must be 
immediately repaired and replaced and safe and reliable water 
must be supplied to them. And for those who have been exposed, 
then the types of interventions that Dr. Hanna-Attisha 
mentioned also need to be given to them.
    The second thing we need to do is we need to fix everyone's 
pipes. Even the best run system is going to have lead issues, 
as long as lead pipes are in the ground. So, a truck rolling by 
or construction, any of this stuff could help dislodge lead 
into the drinking water.
    And so we need an inventory of where all those lead service 
lines are and then we need to get them fully replaced but it is 
not just about lead. The whole infrastructure needs replacing. 
Leaking pipes contribute to bacterial contamination. It wastes 
a lot of water and a lot of money and causes serious property 
damage.
    So, I am asking on you all to help identify the mechanisms 
to fund this necessary overhaul.
    The third thing we need to do is we need to fix monitoring. 
One of the craziest things about Flint was that Flint had no 
recorded violations of the Lead and Copper Rule. And it is one 
of the dirty little secrets is that there are some utilities 
that know how to do sampling to avoid finding problems.
    The Lead and Copper Rule's monitoring system is designed to 
target high-risk homes but some of the utilities can employ 
techniques that defeat the intent of the rule. And so for 
example, they could have homeowners flush the water for 5 to 10 
minutes before it sits for the 6 hours that are required. They 
can use the smaller-necked bottles, which force the samplers to 
use a lower flow of water, which can also lower the amount of 
lead that gets captured. They can remove the aerators, which 
have lead particles sometimes get lodged in those. And that can 
also help lower the amount of lead that gets collected.
    And there are many more techniques that they can use. It is 
wrong and it needs to stop. And EPA can stop these types of 
activities as it is revising the Lead and Copper Rule.
    And I really appreciated Mr. Upton's call for EPA to get 
the revisions done before 2017.
    But I also wanted to address the NDWAC recommendations that 
have been mentioned several times. As Mr. Beauvais said, 
because Flint has happened, I think that there are more lessons 
that can be learned after the report was given out. And so some 
of those things that should be in the revised rule are a more 
robust monitoring program that has mandatory and frequent 
sampling, not voluntary sampling of the tap water in people's 
homes and in schools. And there should also be a rapid and 
clear notification to people when the samples detect a problem.
    So, on a broader level, when it comes to drinking water, 
citizens have very limited ability in what they can do in the 
face of the catastrophic failure of the State and local 
government. Citizens should be given the ability to bring suits 
to enforce the Safe Drinking Water Act when there is a 
substantial and imminent endangerment like there was in Flint. 
Then they wouldn't have to be at the mercy of EPA waiting to 
see whether EPA is going to act and exercise its emergency 
authority over the States.
    And finally, an important part of the story that I don't 
want us to forget in Flint, the Flint community is 
predominately African American and it has a high percentage of 
residents living at or below the poverty line or who are 
working but struggling to make ends meet and communities of 
color all over this country often bear the burden of 
environmental contamination and the resulting health problems.
    And so as you are working to identify the funding 
mechanisms to upgrade our drinking water infrastructure, I just 
urge you to find ways to prioritize assistance going to these 
communities because we don't want to create a two-tier system, 
where the wealthy get access to clean and safe water and the 
less wealthy get second class water.
    And so I have other recommendations in my testimony for how 
we can protect our drinking water and how doing so can help our 
economy and I would be happy to answer any questions. Thank 
you.
    [The prepared statement of Ms. Wu follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Mr. Pitts. The Chair thanks the gentlelady.
    That concludes the testimony of Panel 2. We will now go to 
questioning. I will recognize myself 5 minutes for that 
purpose, and I will begin with you, Dr. Mona.
    The administration announced $3.6 in Head Start, Early Head 
Start funding for the City of Flint. Can you elaborate on the 
impact this intervention will have on the children exposed to 
lead and their families?
    Dr. Hanna-Attisha. Yes, great question. So, education is 
one of the solutions here, and what we do in the 0-5 age range 
is the most important things, and that is where Early Head 
Start and Head Start plays a role.
    The $3.6 million expands three more classrooms and gives 
one more year of funding. So, it is a temporary thing for a 
limited number of children. The children most at risk from this 
exposure are the infants and the babies and we need funding for 
at least 5 to 10 years to address those exposed children. So, 
we are grateful for that 1 year of funding, but it is not 
enough.
    Mr. Pitts. Thank you.
    Ms. Alker, thank you for coming to the committee again to 
share your insights on Medicaid waivers. As you noted in your 
testimony, CMS moved quickly to approve a waived expanding 
Medicaid coverage to children and pregnant women. Your 
testimony explained how children can benefit from early 
periodic screening and diagnosis and treatment but you didn't 
mention how the Flint waiver expands coverage to pregnant women 
and newborns.
    Can you talk a little bit about some of the services, 
benefits available to pregnant women and newborns under the 
waiver?
    Ms. Alker. Well, newborns should also be subject to the 
EPSDT benefit that I mentioned. That does provide for 
comprehensive screening and treatment.
    With respect to the pregnant women, I would mention that, 
and I am certainly not an expert, but there were a few ways in 
which the waiver could have been improved in my judgment. And 
there were comments submitted by the American College of 
Obstetricians and Gynecologists with respect to the pregnant 
women piece, where they thought the coverage needed to be 
little bit more comprehensive and I don't think those comments 
were adopted in the final waiver. So, that would be something 
that the committee might want to look into.
    Mr. Pitts. Thank you.
    Director Estes-Smargiassi, what lessons have you learned 
from the experience in Flint?
    Mr. Estes-Smargiassi. It is clear that shared 
responsibility from the operators to the plant to the folks who 
deal with financing, to our regulators, to paying attention to 
citizens is necessary to avoid this type of crisis.
    One lesson that I see in this is that we have rules. We 
need to make sure that the rules are paid attention to. We 
can't create rules that fix every problem. We need to pay 
attention, as citizens and as operators of systems pay 
attention to what is going on.
    My system, we try and train our operators, train our 
customer service folks that when complaints come in that we 
take them seriously. If that had happened in Flint, when the 
water changed colors and it was not palatable, folks really 
investigated what was going on, even though bad decisions had 
been made about corrosion control, they might have stopped it 
earlier. Likewise, if that information had gotten up to the 
regulators and it was taken seriously.
    So, it is a case where we all need to be vigilant to avoid 
a crisis.
    Mr. Pitts. Do you have any comments on what Panel 1 said 
about the Lead and Copper Rule?
    Mr. Estes-Smargiassi. Not specifically. I think I would 
emphasize a couple of things. One, that so long as lead lines 
are out there, there is a risk that some change in treatment--
it may be that we have a new contaminant that we are worried 
about and we change our treatment--to account for that. And if 
those lead lines are out there, there is a chance that that 
lead could become mobile and end up in the drinking water. Or, 
if there is a change in the source, change in climate, change 
in weather different circumstances that changes the quality of 
the source water without changing the location of the source, 
those lead lines could become a problem.
    So, as an operator of a system and as a member of the AWWA, 
I kind of look to a long-term view that there aren't any lead 
service lines out there. Maybe not in 5 years or 10 years, but 
getting to that point of not having lead in contact with the 
water is a major step forward.
    Mr. Pitts. Thank you.
    Administrator Swallow, yesterday EPA announced it had 
reached an agreement with State health officials on 
environmental exposures and public health. Can you give us some 
personal examples of whether this will enhance coordination or 
create overlapping Federal responses?
    Ms. Swallow. I am sorry, I am not familiar with that 
agreement.
    Mr. Pitts. OK. All right, thank you. My time has expired.
    The Chair recognizes the gentleman, Mr. Tonko, 5 minutes 
for questions.
    Mr. Tonko. Thank you, Mr. Chair. And welcome to our 
panelists.
    First let me offer a thank you to Dr. Hanna-Attisha for all 
of your work on behalf of the children of Flint. It is so 
greatly appreciated. And I am also glad we are joined by a 
number of members of the National Drinking Water Advisory 
Council.
    And Ms. Wu, thank you mentioning other contaminants.
    In my home State of New York, a number of communities are 
dealing with toxic substances in their water systems. This is 
about more than just lead and you made that very clear. But 
without strong Federal support, we cannot incentivize greater 
response on many contaminants to protect public health.
    Ms. Wu, would you agree with my assessment that the Federal 
share of investment has not been adequate to truly carry out 
our goal of reducing public health risks from unsafe drinking 
water?
    Ms. Wu. Yes, I would agree that even more funding needs to 
go to the State revolving fund programs for drinking water and 
it has been woefully underfunded.
    Mr. Tonko. And what role would you site that aging and 
deteriorating infrastructure plays in that whole outcome?
    Ms. Wu. It is a big part of the problem. So, as I mentioned 
you have leaking pipes and if you have pipes that are leaking 
that happen to be in the same part of the say ditch as like 
sewer lines, you could get bacterial contamination leaking into 
drinking water and that could lead to waterborne disease 
outbreaks. That is a big part of the problem.
    And then there are other issues with contamination that can 
get in through broken water towers and things like that. The 
big part.
    Mr. Tonko. And I am told that billions of gallons of water 
lost through leaking pipes on any given day. So, it is textiles 
flowing out of those pipes also.
    And Ms. Swallow, you point out in your testimony the 
importance of maintaining the human infrastructure of our 
drinking water programs. We need to attract and maintain 
quality people, qualified people to operate these systems. We 
need to ensure that system operators have access to ongoing 
training and certification programs to tackle new problems that 
arise.
    You mentioned the public water system supervision grant 
program. Will you please expand a bit on the importance of tat 
funding?
    Ms. Swallow. Yes, the public water system supervision grant 
is the primary grant from Congress to the States to implement 
the safe drinking water act. That is our base funding to 
operate the program. It has been level funded for the past 10 
years, and that has been while we have had a reauthorization of 
the Safe Drinking Water Act. There are quite a lot of more 
requirements that we are implementing among the water systems.
    And the State programs are, essentially, pretty much 
stretched to the breaking point. Our resource needs estimate is 
that the State programs are 41--this is a 2014 estimate--that 
the drinking water programs with the States have a 41 percent 
shortfall in funding, amounting to roughly $308 million.
    Mr. Tonko. Wow. And are there other items or other things 
we can do to support the drinking water workforce that we 
require?
    Ms. Swallow. Yes. Certainly technology improvements help, 
improvement of the database. The States are in the process, and 
EPA, in doing a major improvement in our data system which will 
be transparent to the public and EPA and, of course, the State 
programs. So, I think that will help.
    And another thing that is much needed is greater funding of 
the State revolving loan fund programs, so that we can better 
meet, better address the needs both for lead service line 
replacement and all of the other infrastructure improvements 
that are necessary.
    Mr. Tonko. I would think not focusing on our water 
infrastructure has also like not provided the attention to the 
career paths that are associated with that work. So, I think by 
investing we will just draw more attention to that career 
opportunity.
    Administrator, you mentioned the value of using a multi-
barrier approach for drinking water. It is certainly less 
costly for water utilities if we prevent contaminants from 
entering their water sources. Should we be strengthening source 
water protection programs?
    Ms. Swallow. Yes, we should be strengthening source water 
protection programs, particularly of the nine-point source 
pollution variety. Many States are challenged, especially by a 
nitrate and phosphorus contamination issues that are leading to 
nitrate contamination but also cyanotoxins.
    Mr. Tonko. And how are States and water utilities 
addressing this environmental infrastructure issue?
    Ms. Swallow. States also have the clean water revolving 
loan fund, which is used to help address this environmental 
issue.
    Mr. Tonko. OK.
    Ms. Swallow. And of course all of the other authorities 
that are environmental program partners.
    Mr. Tonko. OK. I have exhausted my time but I have, Mr. 
Chair, other questions that I will enter into the record, so as 
to get responses to those.
    And with that, I thank our panel and I yield back.
    Mr. Pitts. The Chair thanks the gentleman. We will send you 
those questions in writing, if you will please respond.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Griffith, 5 minutes for questions.
    Mr. Griffith. Thank you very much, Mr. Chairman. Thank you 
all for being here and waiting through the first panel to get 
to testify. I do appreciate that. And I do appreciate the 
testimony that you have given here this morning.
    I mentioned in the previous panel that there was an article 
in the Roanoke Times, Roanoke, Virginia, my area, at least the 
beginning of my area, and in the article that was talking about 
the Virginia Tech water study team, it said that Edwards said 
he and those involved in the Flint study are gauging interest 
in doing a similar project in Philadelphia. There are some 
initial similarities between Philadelphia and Flint, Edwards 
said. What do you know about it?
    Who wants to tackle it? Does anybody know anything about a 
Philadelphia situation where the initial similarities are 
there? Do you know about other situations? I mean what can we 
do to be aware of these types of things?
    And they went on to mention some other things dealing with 
some private wells and that kind of thing. And obviously, that 
is always going to go on. But do we know of any other major 
municipal areas that are distressed?
    Dr. Hanna-Attisha. I can quickly comment and then I will 
pass it on to the water experts.
    Mr. Griffith. Yes, ma'am.
    Dr. Hanna-Attisha. But understanding is that in 
Philadelphia, like in Michigan, they are gaming the sampling. 
So, they are doing maybe pre-flushing or removing aerators or 
using small wattles. It is very easy to manipulate the sampling 
to detect low levels of lead but I will have the others comment 
as well.
    Mr. Griffith. And I will accept that. So, that gives you 
some of what may be happening and it might be fine; it might 
not be.
    Now, for those people who might be concerned, wherever they 
might be in the United States, watching this most likely 
sometime in the wee hours of the morning, is there a kit that 
you can just go out and buy and test your own water and follow 
the instructions? Is that available to the general public?
    Dr. Hanna-Attisha. I am not sure.
    Mr. Griffith. No.
    Mr. Estes-Smargiassi. We would not recommend you go to Home 
Depot and pick up a water test there. It will not be very 
helpful. But many utilities do--every State has a list of 
certified labs and many utilities maintain that information for 
their own rate payers to get access to. Some systems provide 
discounted or free water testing, all local decisions. But in 
any State, anywhere, if you were to contact the State Drinking 
Water Act program, you could get a list of labs and for 
something on the order of $20 to $30 or $35, get a sample taken 
of water in your own home, using whatever sample technique to 
help to understand your own particular problem.
    Mr. Griffith. OK. So, it is----
    Mr. Estes-Smargiassi. That information is available.
    Mr. Griffith. It is available and you can get a list of the 
labs that might come to your--will they come to your house or 
you take the water yourself and send it?
    Mr. Estes-Smargiassi. Typically, they will mail a sample 
kit to you and then you would return it to them by mail.
    Mr. Griffith. All right. Ms. Wu, go ahead.
    Ms. Wu. Well, I was going to mention that I believe there 
is also a group called Healthy Babies, Bright Futures that are 
doing--that have online test kits that you can purchase at 
whatever price you can afford, if your system doesn't have that 
available.
    Mr. Griffith. They are listed here as well. And apparently, 
the Virginia Tech water project folks are working on a number 
of the kits that they, Healthy Babies, Bright Futures, has put 
out. That is a nonprofit group but then you still have to get 
somebody to analyze it.
    Ms. Wu, you indicated that as we go forward, we need to do 
more testing, make it mandatory testing, do it at the schools 
and the homes. Now, would that be done by an agency or would 
that be done by a third party? What do you think would work 
better?
    Ms. Wu. Well, I mean the idea that I had was they would be 
part of the revisions of the Lead and Copper Rule where right 
now the utility is supposed to send people out to do the 
sampling in the homes and the idea would be to keep that. And I 
mentioned it only because in the recommendations from NDWAC 
that were mentioned, it was talking about more of a customer-
initiated voluntary program. And so I wanted to make sure that 
we kept it as a mandatory program for testing.
    Mr. Griffith. OK and I do appreciate that.
    Dr. Hanna--help me.
    Dr. Hanna-Attisha. Dr. Mona is fine.
    Mr. Griffith. Dr. Mona. Thank you, I appreciate that.
    I did mention earlier that Dr. Edwards is out a lot of 
money that they expended to bring the team out from Virginia 
Tech to do the research in Flint. The folks from Michigan 
indicated you had been very helpful as well. Are you out 
substantial funds as well?
    Dr. Hanna-Attisha. You know this work doesn't involve 
money. It is something that is so important that you do and you 
don't sleep. It is not a 9 to 5 issue. There is no cost.
    You know Dr. Edwards is a hero. You asked that earlier. 
When he heard that Michigan wasn't listening to its residents 
and, every day that went by, children were being poisoned with 
lead, he packed his minivan with grad students and some slides 
and he came up to bring science to test the water.
    So you know we have all had opportunity costs because of 
this work but this is incredible work and it has been 
incredibly rewarding.
    Mr. Griffith. Right. And even though they are out of funds, 
it is interesting that you say that because in the article that 
I didn't mention earlier, he says this was priceless. We will 
go to our graves knowing we stood up for Flint kids when no one 
else could or would.
    Dr. Hanna-Attisha. Absolutely.
    Mr. Griffith. And with that, my time is up. I yield back. 
But thank you all very much.
    Mr. Pitts. The Chair thanks the gentleman.
    I know recognize the ranking member, Mr. Green, 5 minutes 
for questions.
    Mr. Green. Thank you, Mr. Chairman.
    As I said during the first panel, the Safe Drinking Water 
Act is intended to ensure safe and reliable drinking water for 
customers of public drinking water systems across the United 
States. Clearly, it failed the citizens of Flint. Listening to 
this panel, it seems like it is failing citizens nationwide. 
Everyone has a role to play in improving the situation--cities, 
counties, States, the EPA, and Congress. One of the most 
important things we can do is quickly adopt important revisions 
to the Lead and Copper Rule and those of you who were here 
heard the EPA statement that maybe this summer, maybe next 
year, which is not acceptable when you have something like 
Flint.
    And really, there are a lot of Flints around the country 
that just haven't been discovered. And that is what I think we 
need to be planning for.
    Ms. Wu, you are a member of the National Drinking Water 
Advisory Committee, which is playing an important role in LCR 
revisions. Before the Flint crisis, was there any clear 
revisions to the LCR that were needed?
    Ms. Wu. No, not during while everything was happening. But 
just to note that I am not actually on the council anymore.
    Mr. Green. OK.
    Ms. Wu. My term ended in December of 2014.
    Mr. Green. Anybody else have--were there any--I mean 
obviously, they have been working on it for a few months.
    Ms. Swallow. Sure, there were many important pieces in the 
NDWAC recommendations, primarily, get the lead out. Remove the 
lead service lines from the street to the house but also the 
household lead action level, which is a health guide for 
individuals in their homes when they get their lead results. 
And the greater transparency, so that the public can see the 
data and also can know if they have a lead service line to the 
best of the knowledge of the water system.
    And I guess that is enough for now and Steve can follow-up 
with more.
    Mr. Estes-Smargiassi. So, I was on the working group that 
worked on that. And I would say a number of things in addition 
to what June said.
    One, the group clearly felt that there were opportunities 
beyond the regulatory structure to improve this situation. I 
will give you a couple of examples. Huge frustration among the 
group, as we discussed the fact that current HUD programs, 
Housing and Urban Development programs, will set up under The 
Healthy Homes to go in and remove lead paint. They might spend 
$25,000 or $30,000 in my neighborhood to remove all the lead 
paint in someone's apartment but they can't spend a nickel on 
removing the lead service line.
    So, they will spend all that money, make the house sort of 
lead-free but not remove the lead service line. So, there are 
opportunities that aren't EPA regulatory programs that could 
make a huge differences.
    Other places are in better coordination of communication 
tools between various Federal programs and even at the local 
level between various parts of organizations.
    Frequently, when we speak to folks who are doing lead 
education, they don't talk about water. Folks talk about lead 
paint, they talk about lead dust because those are huge and 
important areas but the person they are dealing with doesn't 
get the piece on water.
    When we were doing the beginning of our program on 
corrosion control, we were actually initially admonished not to 
talk about water because it would confuse people. And we said 
no, that is not right. We need to talk about all the aspects 
uniformly, make sure that the citizens get all that 
information.
    So, there is a lot we can do that is outside the regulatory 
framework.
    Mr. Green. Well, and I know we have programs and, like I 
said in the opening statement, the City of Houston has been 
really aggressive with lead paint on the walls and in dealing 
with that but, again, the galvanized pipes, that was the state 
of the art over the last 50 years, I guess, or so. And what 
happened in Flint, we see that there are ways that that can be 
eroded.
    Although, my other question is when I first elected to 
Congress, years ago, I was told not to drink the water in DC. I 
haven't seen those warnings in the last few years so, 
obviously, we know how to fix it. But it is very expensive 
because you have to replace those lines and, obviously, you 
replace the worst ones first and it takes a cooperation between 
the city government, the State, and the Federal Government to 
try and do it. And that is why the revolving fund is so 
important to do that.
    But again, it is not just a Flint. It is just Flint fell 
into it because of a decision-making and they didn't recognize 
that was a wrong decision until it was too late.
    Thank you, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the gentleman from Maryland, Mr. Sarbanes, 
5 minutes for questions.
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to thank the 
panel.
    We have heard a lot about the physical consequences on 
children in terms of their physical health from the lead in the 
water. Most of the discussion has been on that and how we 
address it going forward. But I was hoping, Doctor, maybe you 
could speak to the psychological impact because I think in the 
prior panel we heard that the recent testing shows maybe only 
two percent of the children now have elevated lead levels but 
they have going through all kinds of testing.
    So, you have the larger context of just heightened anxiety 
of parents, community leaders, teachers, principals, which 
obviously must be producing some effect. Then, within that, you 
have got testing regimens happening. I don't know how 
frequently but it has got to be contributing to a sense among 
these children that something is terribly wrong and they are 
under siege. So, maybe you could speak to that a little bit and 
kind of what is being done about it and what the potential 
lingering effects of that are going to be.
    Dr. Hanna-Attisha. Absolutely. So, the psychological trauma 
is real and I see it every day in the clinic. When a mom brings 
her kid in, there is a look of fear and anxiety and trauma. 
These are families that for 2 years were told everything was 
OK. Even when in their gut they knew that the brown water was 
not OK, they were told it was OK. So, they feel betrayed and 
traumatized and a huge, huge, lack of trust in Government.
    And then there is the fear of the unknown. What is going to 
happen to my child? All they hear on the news is brain damage, 
irreversible neurotoxin. They think that their children may be 
damned for generations.
    So, we are actively trying to do reassurance and provide 
hope. Not every kid is going to have every problem but it takes 
a lot of rapport-building and a lot of time. There is 
definitely the beginning of mental health first-aid that is 
ongoing. Just like in any crisis, the American Red Cross and 
our community mental health is in there. There is a crisis line 
that is set up. Because just that trauma and that stress can 
lead to chronic diseases and more health problems.
    So, of any health issue right now, it is the mental health 
that is most pressing. You talk to a family and after the first 
sentence, they are in tears or they are yelling and rightly so. 
There is almost a sense of a truth and reconciliation process 
that needs to happen. They are so angry and they want to know 
what happened so that they can start healing. It is going to be 
a long path for healing that is going to take decades.
    Mr. Sarbanes. Does anyone else want to comment on that to 
mention anything? OK.
    Thanks very much. I yield back the rest of my time.
    Mr. Pitts. The Chair thanks the gentleman.
    We are voting on the floor at this time. The Chair now 
recognizes Mr. Cardenas for 5 minutes for questions.
    Mr. Cardenas. Thank you very much, Mr. Chairman. I want to 
thank the panel for coming together and also doing the 
wonderful work that you attempt to do and do every single day 
for everyone. So, thank you so much.
    What happened in Flint is atrocious and gut wrenching but 
today we can't just talk about getting lead out of the water. 
We need to address the future and do what it will take for the 
children to heal. I want to be clear that this scenario was the 
result of another effort to prioritize cuts in Government 
spending without any regard for the protection of the public's 
health. In other words, this was a cost-saving measure 
estimated to save only $2.5 million a year, but now we are 
looking at mounting human and economic costs that will take 
decades and hundreds of millions of dollars to address.
    There is a saying that goes water is for life and 
sanitation is dignity. In Flint, water also stands for dignity. 
But where is the dignity when children's futures have been 
robbed? The Michigan State Government's choices to cut the 
budget where they did should have been made elsewhere, in 
places where the lives of children would not have been put at 
risk.
    While I know that most of my Republican colleagues 
continually seek to reduce or eliminate Government department 
by department and service by service, we have an obligation to 
make sure that we invest in the lives of children and every 
American. No American child should have to suffer from a 
manmade disaster.
    This is an atrocity that should not have ever happened. 
This is a reminder that when we are unwilling to invest in 
people's safety, Flint is going to happen again. The brain does 
not fall on the EPA or the constituents. This dark moment 
should remind all elected officials that we have a 
responsibility to do what is right. When an idea may not seem 
popular, it is critical for us to do what is right for the 
wellness and safety of every American so that we never have 
what happens in Flint, Michigan ever happen again.
    Unlike earthquakes, mudslides, and hurricanes, Flint was 
not a national disaster. The Government-appointed commissioner 
and the State of Michigan made this happen. They thought it was 
appropriate to do something they were warned not to do. The 
disaster was manmade. It was not made out of ignorance. This 
disaster was made out a willfulness to ignore a responsibility 
to an entire community.
    The brains of the children poisoned with lead will not 
fully recover. What happened in Flint happens every day in 
Third World countries. It should never happen anywhere in the 
world, much less the United States of America. There were 
individuals responsible for the community who knew the water 
wasn't safe enough to drink and yet they did nothing and said 
nothing.
    Every time we insist on cutting resources from communities, 
the tragedy in Flint is bound to happen over, and over, and 
over again.
    I want to be clear. What happened in Flint is a disaster 
that was manmade and at the tip of the spear is the Michigan 
Government, its complicity in many levels of Government. So, we 
need to be willing to do our job to make sure that this never 
happens again. Because with all due respect, ladies and 
gentleman, at every level, the infrastructure of America is 
crumbling and we need to address these issues. We have a 
responsibility to be there for the children. Let this be a 
lesson that the $2.5 million a year that the State of Michigan 
wanted to save is now a drop in the bucket of the amount we now 
need to invest due to this manmade disaster.
    Dr. Hanna-Attisha, in your testimony, you observed that the 
State and Federal Government had begun to make an impact in 
Flint through important services offered through Medicaid, Head 
Start, community health centers and WIC. However, as you note, 
most of these are temporary. Correct?
    Dr. Hanna-Attisha. Correct.
    Mr. Cardenas. Should this be something that we should 
continue to address for many, many years as these afflicted 
children and families will have these effects for many, many 
years to come?
    Dr. Hanna-Attisha. Absolutely. We have yet to see the long-
term investment in our children and in our community.
    Mr. Cardenas. Thank you.
    In my closing seconds, I would just like to remind us, 
finally, let me remind our colleagues that when you advocate 
for billions upon billions of dollars in cuts, we will 
guarantee and put in motion that we have failed to prevent the 
future disasters in America and Flint will happen again and 
again, and again.
    Thank you, Mr. Chairman. I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    That concludes the questions of the members present. We 
will have follow-up questions. Other members will have written 
questions. We will send them to you. We ask that you please 
respond.
    Thank you very much for your expertise, for sharing with us 
today.
    Members are advised there are still 7 minutes left on the 
clock for the vote on the floor.
    I remind members that they have 10 business days to submit 
questions for the record. So, members should submit their 
questions by the close of business on Wednesday, April 27.
    This is a very, very important issue. We all must have 
clean, safe drinking water. We will work together to accomplish 
this. Thank you very much for all of the testimony and members' 
interest on this.
    Without objection, the subcommittee hearing is adjourned.
    [Whereupon, at 1:40 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    

                                 [all]
</pre></body></html>
